<html>
<title> - REVIEW OF SMITHSONIAN INSTITUTION CURRENT FACILITIES AND FUTURE SPACE NEEDS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
 REVIEW OF SMITHSONIAN INSTITUTION CURRENT FACILITIES AND FUTURE SPACE 
                                 NEEDS

=======================================================================

                                (116-42)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 13, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            

             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                             ______                      


              U.S. GOVERNMENT PUBLISHING OFFICE 
41-960 PDF             WASHINGTON : 2020 
                              
                             
                             

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              DANIEL LIPINSKI, Illinois
MARK MEADOWS, North Carolina         STEVE COHEN, Tennessee
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
ROB WOODALL, Georgia                 HENRY C. ``HANK'' JOHNSON, Jr., 
JOHN KATKO, New York                 Georgia
BRIAN BABIN, Texas                   ANDRE CARSON, Indiana
GARRET GRAVES, Louisiana             DINA TITUS, Nevada
DAVID ROUZER, North Carolina         SEAN PATRICK MALONEY, New York
MIKE BOST, Illinois                  JARED HUFFMAN, California
RANDY K. WEBER, Sr., Texas           JULIA BROWNLEY, California
DOUG LaMALFA, California             FREDERICA S. WILSON, Florida
BRUCE WESTERMAN, Arkansas            DONALD M. PAYNE, Jr., New Jersey
LLOYD SMUCKER, Pennsylvania          ALAN S. LOWENTHAL, California
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
BRIAN J. MAST, Florida               STACEY E. PLASKETT, Virgin Islands
MIKE GALLAGHER, Wisconsin            STEPHEN F. LYNCH, Massachusetts
GARY J. PALMER, Alabama              SALUD O. CARBAJAL, California, 
BRIAN K. FITZPATRICK, Pennsylvania   Vice Chair
JENNIFFER GONZALEZ-COLON,            ANTHONY G. BROWN, Maryland
  Puerto Rico                        ADRIANO ESPAILLAT, New York
TROY BALDERSON, Ohio                 TOM MALINOWSKI, New Jersey
ROSS SPANO, Florida                  GREG STANTON, Arizona
PETE STAUBER, Minnesota              DEBBIE MUCARSEL-POWELL, Florida
CAROL D. MILLER, West Virginia       LIZZIE FLETCHER, Texas
GREG PENCE, Indiana                  COLIN Z. ALLRED, Texas
                                     SHARICE DAVIDS, Kansas
                                     ABBY FINKENAUER, Iowa
                                     JESUS G. ``CHUY'' GARCIA, Illinois
                                     ANTONIO DELGADO, New York
                                     CHRIS PAPPAS, New Hampshire
                                     ANGIE CRAIG, Minnesota
                                     HARLEY ROUDA, California
                                     Vacancy
                                ------                                7

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

     DINA TITUS, Nevada, Chair
MARK MEADOWS, North Carolina         DEBBIE MUCARSEL-POWELL, Florida
GARY J. PALMER, Alabama              SHARICE DAVIDS, Kansas
JENNIFFER GONZALEZ-COLON,            ELEANOR HOLMES NORTON,
  Puerto Rico                          District of Columbia
CAROL D. MILLER, West Virginia       HENRY C. ``HANK'' JOHNSON, Jr., 
GREG PENCE, Indiana                  Georgia
SAM GRAVES, Missouri (Ex Officio)    JOHN GARAMENDI, California
                                     ANTHONY G. BROWN, Maryland
                                     LIZZIE FLETCHER, Texas, Vice Chair
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)



                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Dina Titus, a Representative in Congress from the State of 
  Nevada, and Chairwoman, Subcommittee on Economic Development, 
  Public Buildings, and Emergency Management:

    Opening statement............................................     1
    Prepared statement...........................................     2
Hon. Gary J. Palmer, a Representative in Congress from the State 
  of Alabama:

    Opening statement............................................     3
    Prepared statement...........................................     4
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     5
    Prepared statement...........................................     6

                                WITNESS

Lonnie G. Bunch III, Secretary, The Smithsonian Institution:

    Oral statement...............................................     7
    Prepared statement...........................................     9

                                APPENDIX

Questions to Lonnie G. Bunch III, Secretary, The Smithsonian 
  Institution, from:

    Hon. Peter A. DeFazio........................................    25
    Hon. Mark Meadows............................................    26
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                            November 8, 2019

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Subcommittee on Economic Development, 
Public Buildings, and Emergency Management
    FROM:  LStaff, Subcommittee on Economic Development, Public 
Buildings, and Emergency Management
    RE:      LHearing on ``Review of Smithsonian Institution 
Current Facilities and Future Space Needs''
_______________________________________________________________________


                                PURPOSE

    The Subcommittee on Economic Development, Public Buildings, 
and Emergency Management will meet on Wednesday, November 13, 
2019, at 2:00 p.m. in 2167 Rayburn House Office Building to 
hold a hearing titled, ``Review of Smithsonian Institution 
Current Facilities and Future Space Needs.'' At the hearing, 
Members will receive testimony from the Secretary of the 
Smithsonian Institution.

                               BACKGROUND

THE SMITHSONIAN INSTITUTION:

    The Smithsonian Institution is the world's largest museum 
and research complex, with 19 museums and galleries, numerous 
research centers, libraries, archives, and the National 
Zoological Park. Created by an Act of Congress in 1846 to carry 
out the trust included in James Smithson's will, it has been 
engaged for 172 years in the ``increase and diffusion of 
knowledge.'' \1\ The Smithsonian Institution is a unique 
instrumentality of the Federal government, as it is funded by 
both Federal and private sources and employs Federal and non-
federal (or ``trust'') staff.
---------------------------------------------------------------------------
    \1\ https://www.si.edu/about/mission.
---------------------------------------------------------------------------
    The Smithsonian is the steward of over 155 million objects 
in the national collection, reflecting the cultural, artistic, 
and scientific heritage of the United States. Last year, the 
Smithsonian attracted over 28 million visitors to its museums, 
galleries, and zoological park.\2\ According to the 
Smithsonian, the Institution owns and leases 680 separate 
buildings, comprising approximately 13.8 million square feet of 
space.
---------------------------------------------------------------------------
    \2\ https://www.si.edu/about.
---------------------------------------------------------------------------
    The Smithsonian is governed by a Board of Regents, 
consisting of the Chief Justice of the U.S. Supreme Court, the 
Vice President, six members of Congress, and nine private 
citizens. In June 2019, the Smithsonian's Board of Regents 
voted to move its headquarters from the historic Smithsonian 
Castle in Washington, D.C. to a 632,000 square foot property 
located at 600 Maryland Avenue, Southwest.\3\
---------------------------------------------------------------------------
    \3\ https://www.bisnow.com/washington-dc/news/office/smithsonian-
to-acquire-southwest-dc-building-for-new-headquarters-99402.
---------------------------------------------------------------------------
    Deferred maintenance of the Smithsonian's highly-populated 
facilities, particularly its museums, has been an ongoing 
challenge. On September 18, 2019, Smithsonian Secretary Lonnie 
Bunch III and Inspector General Cathy Helm testified before the 
Committee on House Administration and spoke at length about the 
Smithsonian's $937 million maintenance backlog.\4\ A 2016 
Inspector General report that found the institution has not 
reduced the backlog because it is spending less than 
recommended on maintenance.\5\ According to Inspector General 
Helm's testimony at the September 18, 2019, hearing, the 
Smithsonian has been spending around 1% on maintenance 
annually, below the 2-4% range recommended for maintenance by 
the National Research Council.\6\
---------------------------------------------------------------------------
    \4\ Oversight of the Smithsonian Institution, Hearing before the 
Committee on House Administration, 116th Congress, September 18, 2019.
    \5\ Smithsonian Institution Office of the Inspector General, 
Semiannual Report to the Congress, March 31, 2016.
    \6\ See supra note 4.
---------------------------------------------------------------------------

SMITHSONIAN FUNDING:

    A significant portion of the Smithsonian's operations are 
funded by annual congressional appropriations. Federal 
appropriations are also provided for the construction or repair 
and restoration of its facilities. The table below summarizes 
the Federal appropriations for FY2017-FY2020.\7\
---------------------------------------------------------------------------
    \7\ See Smithsonian Institution FY 2020 Budget Justification to 
Congress, pg. 7, March 2019; see also Smithsonian Institution FY 2019 
Budget Justification to Congress, pg. 7, February 2018.

----------------------------------------------------------------------------------------------------------------
             Account                FY2017 Enacted      FY2018 Enacted      FY2019 Enacted      FY2020 Request
----------------------------------------------------------------------------------------------------------------
Salaries and Expenses...........       $729,444,000        $731,444,000        $739,994,000        $759,345,000
Facilities Capital..............       $133,903,000        $311,903,000        $303,503,000        $219,000,000
                                 -------------------------------------------------------------------------------
  Total.........................       $863,347,000      $1,043,347,000      $1,043,497,000        $978,345,000
----------------------------------------------------------------------------------------------------------------


    For FY2019, Congress appropriated $303.5 million for 
Smithsonian facilities.\8\ For FY2020, the House Committee on 
Appropriations recommended $219 million for the Facilities 
Capital account, $84.5 million below the enacted level of the 
previous year.\9\ This is the same amount requested in 
Smithsonian's FY2020 budget request.\10\ A significant portion 
of this proposed funding would be for the multi-year, multi-
phase renovation of the National Air and Space Museum (NASM). 
In the conference report for the FY2019 continuing 
appropriations resolution, conferees expressed support for the 
Smithsonian's Latino and Women's History initiatives and urged 
an expanded presence of these initiatives at the 
Smithsonian.\11\ This support was also expressed in the 
explanatory statements for the FY 2017 \12\ and FY2018 \13\ 
Consolidated Appropriations Acts.
---------------------------------------------------------------------------
    \8\ P.L. 116-6.
    \9\ H. Rept. 116-100.
    \10\ See supra note 7.
    \11\ H. Rept. 116-9, pg. 754-755, February 13, 2019.
    \12\ P.L. 115-31, pg. 1137-1138, 2018.
    \13\ P.L. 115-141, Division G, pg. 1188, 2018.
---------------------------------------------------------------------------
    In addition to support provided by Federal appropriations, 
the Smithsonian Institution has access to a trust fund which 
currently has a market value of $1.6 billion, according to the 
Smithsonian's estimation.\14\ Trust funds are used to leverage 
the Smithsonian's research capacity through partnerships with 
federal agencies, universities, non-Governmental organizations, 
industry, and other private organizations, both national and 
international. Trust funds are also used to renovate and 
modernize exhibits throughout the Institution.
---------------------------------------------------------------------------
    \14\ Smithsonian FY2020 Budget Review Presentation, March 2019.
---------------------------------------------------------------------------
    The Institution's trust funds are comprised of 1) general 
trust funds with limited or no restrictions on their use, 2) 
funds restricted by the donor or sponsor, and 3) Government 
grants and contracts. General trust funds are generated from 
investment income; payout from unrestricted endowments; net 
proceeds from museum shops, catalogues, and food service 
concessions; sales of Smithsonian books, records, and other 
products based on designs and objects in the collections; 
theater/planetarium operations at the NASM; licensing fees from 
the Smithsonian Channel and student travel programs; rental of 
exhibitions of the Smithsonian Institution Traveling Exhibition 
Service; membership programs (including subscriptions to 
Smithsonian and Air and Space magazines); the sale of posters, 
exhibition brochures, catalogues, and other publications; and 
admission fees.\15\ The table below summarizes the sources of 
trust operating funds.\16\
---------------------------------------------------------------------------
    \15\ See supra note 7 at pg. 235.
    \16\ Id.

----------------------------------------------------------------------------------------------------------------
                        Fund                            FY2017 Actuals     FY2018 Estimates    FY2019 Estimates
----------------------------------------------------------------------------------------------------------------
General.............................................        $97,900,000         $89,500,000         $76,100,000
Donor/Sponsor-Designated............................       $247,700,000        $247,300,000        $263,700,000
Government Grants and Contracts.....................       $113,700,900        $117,500,000        $116,900,000
                                                     -----------------------------------------------------------
  Total Available for Operations....................       $459,300,000        $454,300,000        $456,700,000
----------------------------------------------------------------------------------------------------------------

ACQUISITION AUTHORITY:

    The Smithsonian Institution's authority to acquire property 
is generally vested in its Board of Regents through statutory 
language on individual facilities. For example, the 
Smithsonian's Board of Regents is authorized to ``invest in, 
reinvest in, or purchase any property for the benefit of the 
National Portrait Gallery.'' \17\ The John F. Kennedy Center 
for the Performing Arts is a bureau of the Smithsonian 
Institution. Consequently, the Smithsonian's Board of Regents 
is authorized ``to sell or exchange and to invest or reinvest 
in such investments as it may determine from time to time the 
moneys, securities, or other property composing trust funds 
given, bequeathed, or devised to or for the benefit'' of the 
Kennedy Center.\18\
---------------------------------------------------------------------------
    \17\ 20 U.S.C. 75(d).
    \18\ 20 U.S.C. 76(k).
---------------------------------------------------------------------------

LEASING AUTHORITY:

    The Smithsonian Institution is one of 25 Federal agencies 
that asserts it has its own leasing authority. The Smithsonian 
is not required to submit real property data to the Federal 
Real Property Council (FRPC) \19\ or comply with OMB's freeze 
the footprint directives. According to the Smithsonian, the 
Institution currently holds approximately 40 leases totaling 
1.4 million square feet. This includes facilities for 
collection storage, general storage, office space, museum and 
specialty buildings, research buildings and laboratories, and 
retail facilities.\20\ The annualized base rent for these 
leases totals $45,138,771, with $11,963,210 in additional 
costs.\21\
---------------------------------------------------------------------------
    \19\ Independent Leasing Authorities: Increasing Oversight and 
Reducing Costs of Space Leased by Federal Agencies; Hearing before the 
Subcommittee on Economic Development, Public Buildings, And Emergency 
Management; July 16, 2016.
    \20\ Smithsonian Institution Leased Space Presentation, pg. 3, 
April 2019.
    \21\ Id.
---------------------------------------------------------------------------
    The Smithsonian's authorization to lease space has been 
included in annual appropriations bills, including:

    <bullet> LPub. L. No. 116-6, 133 Stat. 253-54:
     <bullet> LFor necessary expenses of the Smithsonian 
Institution, as authorized by law, including research in the 
fields of art, science, and history; development, preservation, 
and documentation of the National Collections; presentation of 
public exhibits and performances; collection, preparation, 
dissemination, and exchange of information and publications; 
conduct of education, training, and museum assistance programs; 
maintenance, alteration, operation, lease agreements of no more 
than 30 years, and protection of buildings, facilities, and 
approaches;
    <bullet> LPub. L. No. 115-31, 131 Stat. 489:
     <bullet> LFor necessary expenses of the Smithsonian 
Institution, as authorized by law, including research in the 
fields of art, science, and history; development, preservation, 
and documentation of the National Collections; presentation of 
public exhibits and performances; collection, preparation, 
dissemination, and exchange of information and publications; 
conduct of education, training, and museum assistance programs; 
maintenance, alteration, operation, lease agreements of no more 
than 30 years, and protection of buildings, facilities, and 
approaches;
    <bullet> LPub. L. No. 114-113, 129 Stat. 2570:
     <bullet> LFor necessary expenses of the Smithsonian 
Institution, as authorized by law, including research in the 
fields of art, science, and history; development, preservation, 
and documentation of the National Collections; presentation of 
public exhibits and performances; collection, preparation, 
dissemination, and exchange of information and publications; 
conduct of education, training, and museum assistance programs; 
maintenance, alteration, operation, lease agreements of no more 
than 30 years, and protection of buildings, facilities, and 
approaches;
    <bullet> LPub. L. No. 113-235, 128 Stat. 2439:
     <bullet> LFor necessary expenses of the Smithsonian 
Institution, as authorized by law, including research in the 
fields of art, science, and history; development, preservation, 
and documentation of the National Collections; presentation of 
public exhibits and performances; collection, preparation, 
dissemination, and exchange of information and publications; 
conduct of education, training, and museum assistance programs; 
maintenance, alteration, operation, lease agreements of no more 
than 30 years, and protection of buildings, facilities, and 
approaches;

    According to the Smithsonian Institution, the following 
statute confers some real estate independence from the General 
Services Administration (GSA):

        All functions with respect to the operation, maintenance, and 
        custody of office buildings owned by the Government and of 
        office buildings or parts thereof acquired by lease, including 
        those post-office buildings which, as determined by the 
        Director of the Bureau of the Budget, are not used 
        predominantly for post-office purposes, are hereby transferred 
        from the respective agencies in which now vested to the 
        Administrator of General Services, exclusive, however, of all 
        such functions with respect to (a) any building located in any 
        foreign country; (b) any building located on the grounds of any 
        fort, camp, post, arsenal, navy yard, naval training station, 
        air field, proving ground, military supply depot, or school, or 
        of any similar facility, of the Department of Defense, unless 
        and to such extent as a permit for its use by another agency or 
        agencies shall have been issued by the Secretary of Defense or 
        his duly authorized representative; (c) any building which the 
        Administrator of General Services finds to be a part of a group 
        of buildings which are (1) located in the same vicinity, (2) 
        are utilized wholly or predominantly for the special purposes 
        of the agency having custody thereof, and (3) are not generally 
        suitable for the use of other agencies; and (d) the Treasury 
        Building, the Bureau of Engraving and Printing Building, the 
        buildings occupied by the National Bureau of Standards, and the 
        buildings under the jurisdiction of the regents of the 
        Smithsonian Institution.\22\
---------------------------------------------------------------------------
    \22\ 40 U.S.C. 301, Sec. 2 Transfer of Office Building Management 
Functions

    In 2016, the Subcommittee held a hearing titled 
``Independent Leasing Authorities: Increasing Oversight and 
Reducing Costs of Space Leased by Federal Agencies.'' \23\ The 
hearing examined a GAO study of how agencies independent of GSA 
were exercising that independent leasing authority, i.e. were 
they getting good deals for the taxpayer by reducing their 
costs and space footprint and were they acting within their 
legal authority.
---------------------------------------------------------------------------
    \23\ See supra note 19.
---------------------------------------------------------------------------
    The GAO witness reported that ``a high percentage of the 
entities' lease files lacked evidence for analyzing and 
documenting the budget effects of the lease. This is important 
because Federal entities must comply with the recording statute 
requires Federal agencies to record the full amount of their 
contractual liabilities, including leases, against funds 
available when the contract is executed. Violations of the 
recording statute can also result in Anti-Deficiency Act 
violations if lease obligations exceed available budget 
authority for the value of the entire lease term at the time 
the lease is executed.'' \24\
---------------------------------------------------------------------------
    \24\ Id. at pg. 5.
---------------------------------------------------------------------------
    Regarding space utilization rates, the GAO witness said 
``all of the eight entities we reviewed leased more office 
space per employee than GSA's recommended target of 150 square 
feet per employee. Twenty-eight of the thirty selected office 
leases we analyzed exceeded the GSA recommended target on 
average by a factor of two. Many of these leases had vacant 
office spaces, which can inflate the per person space 
allocation.'' \25\
---------------------------------------------------------------------------
    \25\ Id.
---------------------------------------------------------------------------
    Congressman Barletta said the following: ``I understand the 
Smithsonian is currently reviewing its leasing authority. As 
Chairman of the subcommittee, it seems the answer should be a 
simple one: work with GSA to meet your leasing needs. When do 
you expect to have a decision on how the Smithsonian plans to 
proceed with its leases?'' To which the Smithsonian witness 
replied: ``Let me back up and just say that as we have entered 
into leases, we have done so in good faith, and we think we 
have very good grounds for doing so. The issue was raised in 
the last few months about whether we had the budget authority 
to do so or not, and there was some lack of clarity. We are 
working with OMB right now in addressing those issues, and we 
will keep the committee apprised of our results there.'' \26\
---------------------------------------------------------------------------
    \26\ Id. at pg. 12-13
---------------------------------------------------------------------------
    The Smithsonian's Board of Regents vets and approve all 
leases by the Smithsonian with a net present value of $5 
million or more.\27\
---------------------------------------------------------------------------
    \27\ Id. at pg. 10.
---------------------------------------------------------------------------

CURRENT MAJOR INFRASTRUCTURE PROJECTS:

    In 2016, the Smithsonian unveiled a new master plan for the 
South Mall campus. The plan includes renovations to the Castle 
and Arts and Industries Building, new Mall-facing entrances to 
the National Museum of African Art and the Arthur M. Sackler 
Gallery, improved visibility and access from the Freer Gallery 
of Art to the Hirshhorn Museum and Sculpture Garden.\28\
---------------------------------------------------------------------------
    \28\ Smithsonian Outlook, Projects and Planning Update, Fall 2019.
---------------------------------------------------------------------------
    The National Air and Space Museum is currently under 
renovation--the first major overhaul of the facility since it 
opened in 1976.\29\ The renovation will address the building 
envelope and terraces, improve energy efficiency, upgrade the 
structure's blast and seismic resistance, modernize the 
building's mechanical engineering and plumbing systems, and 
improve functionality of spaces affected by the systems 
renewal. Phasing plans have approximately half of the museum 
under renovation while the remaining half will remain open to 
visitors. To safeguard artifacts during construction, most have 
been moved to a new collection's storage facility at the 
museum's Steven F. Udvar-Hazy Center in Chantilly, VA. Funding 
for the renovation consists of $650 million in Federal 
appropriations for building revitalization and $250 million in 
trust funds for new exhibits.\30\ The project is expected to be 
completed in 2024.\31\
---------------------------------------------------------------------------
    \29\ Smithsonian Press Release, Major Renovation Underway at 
National Air and Space Museum, January 30, 2019.
    \30\ See supra note 28 at pg. 2.
    \31\ Id.
---------------------------------------------------------------------------
    Increased collections storage capacity has been a priority 
for the Smithsonian in recent years. The Smithsonian is 
currently crafting the Suitland Collections Center Master Plan, 
which will assess collections space needs across the 
Smithsonian for the next 40 years. This plan will facilitate 
reductions to leased space, collections growth, relief of 
overcrowding, and relocation of collections from deficient or 
vulnerable locations. The plan will be submitted for review by 
the National Capital Planning Commission during FY2020.\32\ The 
Smithsonian is also in the design stage for the final phase of 
the Suitland Museum Support Center building, Pod 6, which is 
expected to be completed in 2025.\33\
---------------------------------------------------------------------------
    \32\ Id. at pg. 6.
    \33\ Id. at pg. 4.
---------------------------------------------------------------------------

NEW MUSEUM BILLS:

    Two bills have been referred to the Subcommittee on 
Economic Development, Public Buildings, and Emergency 
Management during the 116th Congress to establish new museums 
at the Smithsonian: H.R. 1980 and H.R. 2420.
    H.R. 1980, the Smithsonian Women's History Museum Act, 
authorizes the Smithsonian Institution to plan, construct, and 
operate a museum dedicated to women's history. The bill 
currently has 293 cosponsors. The bill establishes a 50-50 cost 
share between the Federal government and non-Federal sources. 
The Congressional Budget Office (CBO) estimates that 
implementing H.R. 1980 would cost $190 million over the next 
decade: $83 million for construction and $107 million for 
staffing, planning, creating exhibits and educational programs, 
and operating the museum.\34\
---------------------------------------------------------------------------
    \34\ Congressional Budget Office, Cost Estimate for H.R. 1980, 
October 7, 2019. Available here: https://www.cbo.gov/publication/55701.
---------------------------------------------------------------------------
    H.R. 2420, the National Museum of the American Latino Act, 
establishes the National Museum of the American Latino in the 
Smithsonian Institution to (1) illuminate Latino contributions 
to the story of the United States; (2) provide for the 
collection, study, research, publication, and establishment of 
exhibitions and programs related to Latino life, art, history, 
and culture; and (3) provide for collaboration with Smithsonian 
Institution museums and research centers and other museums and 
educational institutions in the United States and abroad. The 
bill establishes a Board of Trustees for the museum to make 
recommendations to the Board of Regents concerning the 
location, planning, design, and construction of the Museum. The 
bill establishes a 50-50 cost share between the Federal 
government and non-Federal sources.

SMITHSONIAN AND SUSTAINABLE CONSTRUCTION:

    Smithsonian facilities design standards require the 
integration of sustainability and energy efficiency in the 
design, construction, operations and maintenance of all 
Smithsonian building projects.\35\ Effective strategies 
implemented at the Smithsonian include decreased consumption of 
electricity, steam, and natural gas; decreased petroleum use in 
vehicles and equipment; and green power purchasing.\36\ The 
National Museum of African American History and Culture 
(NMAAHC) was awarded a Gold certification by the U.S. Green 
Building Council's Leadership in Energy and Environmental 
Design (LEED) program.
---------------------------------------------------------------------------
    \35\ Smithsonian Institution Facilities Design Standards, Section 
IV, January 2012.
    \36\ Smithsonian Institution, Roadmap for the Development of a 
Climate Change Adaptation Plan, pg. 3, September 2013.
---------------------------------------------------------------------------
    Smithsonian staff have assessed the vulnerability of its 
major facilities in D.C., Maryland, New York, and Florida to 
the impacts of flooding and sea level rise as a part of the 
Institution's ongoing climate change adaptation planning. This 
enables the Smithsonian to prioritize projects and incorporate 
resilience principles into is master plans and projects. This 
work has informed master plans for the National Museum of 
American History and the National Museum of the American Indian 
and led to the decision to relocate the rare book collection at 
the National Air and Space Museum to the less vulnerable Udvar-
Hazy Center in Chantilly, VA.\37\
---------------------------------------------------------------------------
    \37\ See supra note 28 at pg. 7.
---------------------------------------------------------------------------
    Since the 102nd Congress, the following construction and 
space acquisition authorization bills related to the 
Smithsonian Institution were referred to the Committee on 
Transportation and Infrastructure:

115TH CONGRESS (2017-2018):

    <bullet> LH.R.4009--Smithsonian National Zoological Park 
Central Parking Facility Authorization Act. Became Public Law 
No.: 115-178.

114TH CONGRESS (2015-2016):

    <bullet> LH.R.3702--Smithsonian Collections Space 
Authorization Act

111TH CONGRESS (2009-2010):

    <bullet> LH.R.5717--Smithsonian Conservation Biology 
Institute Enhancement Act: H. Rept. 111-612, Part 1; H. Rept. 
111-612, Part 2
    <bullet> LH.R.608--Smithsonian Institution Facilities 
Authorization Act of 2009. H. Rept. 111-53
    <bullet> LH.R.3224--To authorize the Board of Regents of 
the Smithsonian Institution to plan, design, and construct a 
vehicle maintenance building at the vehicle maintenance branch 
of the Smithsonian Institution located in Suitland, Maryland, 
and for other purposes. H. Rept. 111-276, Part 1; H. Rept. 111-
276, Part 2

110TH CONGRESS (2007-2008):

    <bullet> LH.R.6541--To authorize the Board of Regents of 
the Smithsonian Institution to plan, design, and construct 
laboratory space to accommodate the Smithsonian Tropical 
Research Institute's terrestrial research program in Gamboa, 
Panama
    <bullet> LH.R.6542--To authorize the Board of Regents of 
the Smithsonian Institution to plan, design, and construct 
laboratory and support space to accommodate the Mathias 
Laboratory at the Smithsonian Environmental Research Center in 
Edgewater, Maryland.
    <bullet> LH.R.6627--Smithsonian Institution Facilities 
Authorization Act of 2008 H. Rept. 110-842, Part 1; H. Rept. 
110-842, Part 2
    <bullet> LH.R.5492--To authorize the Board of Regents of 
the Smithsonian Institution to construct a greenhouse facility 
at its museum support facility in Suitland, Maryland, and for 
other purposes. H. Rept. 110-545

108TH CONGRESS (2003-2004):

    <bullet> LH.R.2195--Smithsonian Facilities Authorization 
Act. Became Public Law No.: 108-72.
    <bullet> LH.R.5105--To authorize the Board of Regents of 
the Smithsonian Institution to carry out construction and 
related activities in support of the collaborative Very 
Energetic Radiation Imaging Telescope Array System (VERITAS) 
project on Kitt Peak near Tucson, Arizona. Became Public Law 
No.: 108-331.

106TH CONGRESS (1999-2000):

    <bullet> LH.R.4729--To authorize the Board of Regents of 
the Smithsonian Institution to plan, design, construct, and 
equip laboratory, administrative, and support space to house 
base operations for the Smithsonian Astrophysical Observatory 
Submillimeter Array located on Mauna Kea at Hilo, Hawaii.

104TH CONGRESS (1995-1996):

    <bullet> LH.R.3933--To authorize construction of the 
Smithsonian Institution National Air and Space Museum Dulles 
Center at Washington Dulles International Airport, and for 
other purposes

103RD CONGRESS (1993-1994):

    <bullet> LH.R.848--To continue the authorization of 
appropriations for the East Court of the National Museum of 
Natural History.
    <bullet> LH.R.855--District of Columbia Land Use 
Notification Act of 1993.
    <bullet> LH.R.2677--To authorize the Board of Regents of 
the Smithsonian Institution to plan, design, and construct the 
West Court of the National Museum of Natural History building. 
H.Rept 103-231 Part 1; Became Public Law No.: 103-151.

102ND CONGRESS (1991-1992):

    <bullet> LH.R.2757--To authorize the Board of Regents of 
the Smithsonian Institution to acquire land for watershed 
protection at the Smithsonian Environmental Research Center, 
and for other purposes.: H.Rept 102-456 Part 1, H. Rept.102-
456, Part I.
    <bullet> LH.R.2758--To authorize the Board of Regents of 
the Smithsonian Institution to acquire an administrative 
service center, and for other purposes. Ordered to be Reported.

                              WITNESS LIST

      LMr. Lonnie G. Bunch III, Secretary, The Smithsonian 
Institution


 REVIEW OF SMITHSONIAN INSTITUTION CURRENT FACILITIES AND FUTURE SPACE 
                                 NEEDS

                              ----------                              


                      WEDNESDAY, NOVEMBER 13, 2019

                  House of Representatives,
      Subcommittee on Economic Development, Public 
               Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:04 p.m. in 
room 2167, Rayburn House Office Building, Hon. Dina Titus 
(Chairwoman of the subcommittee) presiding.
    Ms. Titus. The subcommittee will come to order. I ask 
unanimous consent that the chair be authorized to declare 
recesses during today's hearing.
    Without objection, so ordered.
    I also ask unanimous consent that Members not on the 
subcommittee be permitted to sit with the subcommittee at 
today's hearing, and ask questions.
    Without objection, so ordered.
    First let me just say how pleased we are to have you here, 
Secretary Bunch. It is a delight for us. We want to 
congratulate you on this new position. As I said earlier at 
your reception, we first met when you were at UNLV doing a 
symposium there, and they send you greetings and 
congratulations. So thank you for joining us.
    As we all know, the Smithsonian is really a crown jewel for 
our Government. It is the world's largest research, education, 
and museum complex in all the world, 21 museums and galleries 
which attracted more than 28 million visitors just last year 
alone.
    In addition, the Smithsonian Affiliations program connects 
this Washington-based institution to nearly every State in the 
country--it is not just limited to here, it is everywhere--as 
well as Puerto Rico. And I know you have many research programs 
around the world, as well.
    My district in Las Vegas, for instance, is home to the 
Smithsonian-affiliated National Atomic Testing Museum, which 
tells the story of our nuclear weapons testing program at the 
test site, its contributions to national defense, and also the 
impacts, both good and bad, that the testing had on the region 
and the people involved there, and also those who lived 
downwind.
    So thank you very much for bringing the show-and-tell 
articles from the museum to share with us.
    All of these collections are just critical to telling our 
Nation's story, educating current and future generations. What 
child doesn't want to go to see the Air and Space Museum? What 
historian doesn't want to visit the East Wing, or other parts 
of the museum here? You have an incredible treasure.
    And we, although you deal with appropriators, are really 
the committee that is responsible for overseeing all the public 
buildings, including the facilities of the Smithsonian. And so 
it is important that we carry out that oversight, and American 
taxpayers know that they are really getting their money's worth 
if they can't come and see it for themselves.
    So today's hearing will examine the Smithsonian's current 
real estate portfolio, as well as expansion, renovation, and 
acquisition plans, the maintenance backlog, the purchase of a 
new headquarters building, and the Smithsonian Institution's 
building naming policy.
    I would point out here how much we appreciate the fact that 
you have a commitment to sustainability, and that the new 
National Museum of African American History and Culture has met 
the LEED gold standard. And so we want to encourage that to 
continue.
    We are delighted that you are here.
    Another thing I want you to talk about, if you will, Mr. 
Secretary--I am a cosponsor of the Smithsonian Women's History 
Museum bill, which passed out of committee last night, and also 
the National Museum of the American Latino Act. So, if you 
could, address kind of where those might be going, or what we 
can do to help to promote those, and tell us how you are 
growing those endeavors.
    I am relatively new to this chairmanship, but over the last 
year or so I have noticed that there is a real disconnect 
between the Smithsonian and our committee. I believe the last 
Smithsonian oversight hearing that we held was in 2007. We 
don't want that to be the case, going forward. I feel a real 
affinity for this institution, and want us to work together to 
develop more of a relationship, and more of a collaboration.
    We know that the Smithsonian is looking at appropriations, 
but we don't want that to just be the authorizing process 
without coming to us. We want transparency in real estate 
acquisitions. You get 70 percent of your budget from Congress, 
so you have to let us know what is going on, even though you 
have your own Board of Regents.
    You have a great story to tell to the American people, and 
to visitors from around the world. We thank you for that, and 
we want to be part of helping you tell that story. So I look 
forward to our discussion today.
    [Ms. Titus' prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Dina Titus, a Representative in Congress 
  from the State of Nevada, and Chairwoman, Subcommittee on Economic 
        Development, Public Buildings, and Emergency Management
    The Smithsonian Institution is the world's largest research, 
education, and museum complex in the world.
    The twenty-one museums and galleries attracted more than 28.5 
million visitors last year.
    In addition, the Smithsonian Affiliates program connects this 
Washington-based institution to nearly every state in the Union as well 
as Puerto Rico.
    My district in Las Vegas, for instance, is home to the Smithsonian-
affiliated National Atomic Testing Museum, which tells the story of 
America's nuclear weapons testing program at the Nevada Test Site, its 
contributions to our national defense, but also the impacts, good and 
bad, that this testing has had on our region and in downwind 
communities across the West.
    These collections are critical to telling our nation's story and 
educating current and future generations.
    As the Committee with the responsibility of overseeing public 
buildings, including the facilities of the Smithsonian, it is important 
to the American taxpayer that we conduct rigorous oversight and ensure 
that taxpayer resources are being utilized appropriately.
    Today's hearing will examine the Smithsonian Institution's current 
real estate portfolio as well as expansion, renovation, and acquisition 
plans; the maintenance budget and backlog; the purchase of a new 
headquarters building, and the Smithsonian Institution's building 
naming policies.
    I would like to welcome today's witness--the Smithsonian 
Institution's recently appointed 14th Secretary--Mr. Lonnie Bunch III.
    Secretary Bunch, congratulations on your stewardship of the 
successful effort to establish the National Museum of African American 
History and Culture and on your appointment to lead the Smithsonian 
Institution.
    Secretary Bunch, as a cosponsor of H.R. 1980, the Smithsonian 
Women's History Museum Act and H.R. 2420, National Museum of the 
American Latino Act, I am interested to hear your thoughts on the 
future expansion of the Smithsonian Museum family as support for these 
two endeavors continues to grow.
    Secretary Bunch, I am relatively new to this Chairmanship, but over 
the course of the last year I have observed a disconnect between the 
Smithsonian Institution and its authorizers.
    The Smithsonian seems to work closely with its appropriators while 
keeping the authorizers minimally informed and at arm's length.
    Given the fact that this Subcommittee has not held a Smithsonian 
oversight hearing since 2007, perhaps that distance is understandable.
    But I can assure you, that will not be the case moving forward.
    The Smithsonian must do a better job of collaborating with its 
Congressional authorizers.
    No more securing authorization via the appropriations bills.
    No more major real estate acquisitions without transparency.
    When contemplating major transactions, the Smithsonian should 
inform Congress at the outset and utilize expertise from other relevant 
federal agencies.
    The Smithsonian cannot take 70 percent of its annual budget from 
Congress and then claim that the Trust structure makes the Smithsonian 
completely independent of Congressional oversight.
    Again, you have a great story to tell and to share with the 
American people and with visitors from around the world and I thank you 
for being here today as we examine these important issues.
    I look forward to a fruitful discussion.

    Ms. Titus. And I will now recognize the ranking member, Mr. 
Palmer.
    Mr. Palmer. Thank you, Chairwoman Titus. I want to welcome 
Secretary Bunch, the 14th Secretary of the Smithsonian 
Institution, and congratulate him on his appointment. I was 
talking with him earlier, that the last time I saw him was when 
he gave remarks on the 50th anniversary of the death of Dr. 
Martin Luther King, Jr.
    You were both eloquent and inspiring.
    Secretary Bunch brings a significant amount of experience 
and knowledge to the position. As Director of the National 
Museum of African American History and Culture, he oversaw the 
development and opening of this project.
    Secretary Bunch, bringing your experience and background to 
bear on museums, research, and programs across the Smithsonian 
will be critical.
    With that said, the committee's jurisdiction focuses on the 
Smithsonian's buildings and grounds. The Smithsonian has 19 
museums, 9 research centers, 3 cultural centers, and the 
National Zoo, and owns or leases nearly 14 million square feet 
of space and nearly 29,000 acres of land.
    While the Smithsonian raises funds on its trust side, a 
majority of the Smithsonian's budget is funded by the taxpayer 
through appropriations. The Smithsonian's buildings, 
acquisition and space management practice have a significant 
impact on cost, accessibility to the public, and the artifacts 
that the Smithsonian is trusted with. With the proposed 
purchase of one-half million square feet of space for a 
headquarters building, and the $650 million renovation of the 
Air and Space Museum, we need to ensure these projects make 
sense and are appropriately managed.
    We owe the taxpayer full transparency regarding how their 
dollars are being spent, and why. That is why our oversight is 
critical, and why it is important for this committee to receive 
timely and accurate information. It is critical that, where the 
Smithsonian requires authorization for projects and activities, 
such a need should be communicated to your authorizing 
committees.
    In 2016, for example, the Smithsonian promised this 
subcommittee during a hearing that we would be kept fully up to 
date on its plans for its leased administrative office space, 
yet the committee received few details on the plans for a new 
headquarters building until years later. We still have 
questions on this acquisition, and whether the proposed 
arrangement, a condo-style purchase, makes sense.
    We know your deferred maintenance is significant. We also 
recognize the challenge with balancing budget constraints with 
the need to invest in maintenance to avoid more costly repairs 
in the future. But if we can find ways to better utilize the 
trust side to address this issue, we can leverage private 
dollars to potentially help meet these needs.
    Secretary Bunch, I know these issues predate your 
appointment. That said, we look forward to working to improve 
transparency and communication, and working together to find 
innovative ways to help you manage the space you need to carry 
out your mission.
    [Mr. Palmer's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Gary J. Palmer, a Representative in Congress 
                       from the State of Alabama
    I want to welcome Secretary Lonnie Bunch, the 14th Secretary of the 
Smithsonian Institution, and congratulate him on his appointment. The 
last time I saw him, he gave eloquent and inspiring remarks on the 50th 
anniversary of the death of Martin Luther King, Jr.
    Secretary Bunch brings a significant amount of experience and 
knowledge to this position. As Director of the National Museum of 
African American History and Culture, he oversaw the development and 
opening of this project. Secretary Bunch, bringing your experience and 
background to bear on museums, research, and programs across the 
Smithsonian will be critical.
    With that said, this Committee's jurisdiction focuses on the 
Smithsonian's buildings and grounds. The Smithsonian has 19 museums, 9 
research centers, 3 cultural centers, and the National Zoo, and owns or 
leases nearly 14 million square feet of space and nearly 29,000 acres 
of land.
    While the Smithsonian raises funds on its trust side, a majority of 
the Smithsonian's budget is funded by the taxpayer through 
appropriations. The Smithsonian's building, acquisition, and space 
management practices have a significant impact on costs, accessibility 
to the public, and the artifacts Smithsonian is entrusted with.
    With the proposed purchase of a half million square feet of space 
for a headquarters building and the $650 million renovation of the Air 
and Space Museum, we need to ensure these projects make sense and are 
appropriately managed.
    We owe the taxpayer full transparency on how their taxpayer dollars 
are being spent and why. That is why our oversight is critical and why 
it is important for this Committee to receive timely and accurate 
information.
    It is critical that where the Smithsonian requires authorization 
for projects and activities, such needs should be communicated to your 
authorizing committees. In 2016, for example, the Smithsonian promised 
this subcommittee during a hearing that we would be kept fully up to 
date on its plans for its leased administrative office space, yet the 
Committee received few details on the plans for a new headquarters 
building until years later. We still have questions on this acquisition 
and whether the proposed arrangement--a condo-style purchase--makes 
sense.
    We know your deferred maintenance is significant. We also recognize 
the challenge with balancing budget constraints with the need to invest 
in maintenance to avoid more costly repairs in the future. But, if we 
can find ways to better utilize the trust side to address this issue, 
we can leverage private dollars to potentially help meet these needs.
    Secretary Bunch, I know these issues pre-date your appointment. We 
look forward to working with you to improve transparency and 
communication, and working together to find innovative ways to help you 
manage the space you need to carry out your mission.

    Mr. Palmer. With that I yield back the balance of my time.
    Ms. Titus. Thank you. I now go to the chairman of the full 
committee, Mr. DeFazio.
    Mr. DeFazio. Thank you, Madam Chair.
    Mr. Secretary, good to see you again. And again, 
congratulations. The chair raised a number of issues. I won't 
be repetitive of concerns that I have.
    In particular, I am hoping that you are going to address 
what we are going to do with the maintenance backlog. I mean, 
over $1 billion. And you have had to relocate the headquarters 
out of the Castle. I want to know how we are going to get all 
this done, and how quickly we can get it done, and begin to pay 
that down.
    And then, obviously, you will be moving artifacts around 
during some of the restoration work, and you are acquiring 
new--so I am also curious about long-term plans for storage.
    I appreciate the fact that you own the majority of your 
buildings, unlike many Federal agencies, who end up paying--you 
know, the taxpayers don't benefit when we lease, and re-lease, 
and re-lease, and re-lease. And so, by owning, you are helping 
to conserve resources. And I appreciate that. But then along 
comes the obligation for the maintenance.
    I do want to emphasize--and hopefully we can sort of turn a 
new page here, with the relationship between the authorizing 
committee and the Institution. For whatever reason, we have 
seen a lot of end runs to the Appropriations Committee.
    We want to approach your concerns and problems and future 
plans thoughtfully in authorizing language. And if things are 
happening over in Approps that are basically impacting those 
things, we need to know. And we can be helpful with 
appropriations, but also we are the authorizing committee, and 
there is a little sensitivity around that.
    And, as the chair mentioned, we have at this point plans 
and authorization for two new museums, and I would be 
interested in your thoughts on that, since I believe the 
Smithsonian provides a 50-percent match on those institutions. 
And the Federal Government, obviously, will have an obligation.
    And then the question about location. Any ideas you have on 
that, or it may be premature at this point.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
     Congress from the State of Oregon, and Chairman, Committee on 
                   Transportation and Infrastructure
    Thank you, Chairwoman Titus.
    Secretary Bunch, thank you for joining us today and congratulations 
on your recent appointment.
    The Smithsonian's extensive real estate portfolio is a significant 
part of what allows for the Institution's continued ``diffusion of 
knowledge'' around the world. However, when it comes to the 
Smithsonian's maintenance backlog, you have your work cut out for you. 
The most recent estimate of the cost of addressing overdue maintenance 
is over $1 billion.
    A backlog of this size undoubtedly affects the Smithsonian's 
ability to plan and implement strategic initiatives. Without necessary 
restoration of these aging facilities, the Smithsonian will not be able 
to carry out its important research or provide world-class exhibits to 
the public.
    Among the many Smithsonian facilities in need of renovation is the 
Institution's headquarters at the historic castle. The Board of Regents 
voted this summer to relocate its headquarters to an office building 
near L'Enfant Plaza.
    It's clear that deferred maintenance is affecting operations at the 
Smithsonian, so I'm interested in what your plan is to address the 
backlog and the need for additional storage space for the Smithsonian's 
growing collection of artifacts.
    I appreciate that the Smithsonian owns the majority of its 
buildings, rather than leasing them. It doesn't make sense to waste 
taxpayer dollars on lease renewals when an up-front purchase or a 
purchase-option could save money in the long term.
    However, I share Chairwoman Titus' concerns about the Smithsonian's 
repeated circumvention of authorization by this Committee. Given the 
significant contribution Congress makes toward the Smithsonian's 
budget, I think it's fair to say that funding needs to be cleared 
through the proper channels.
    In addition, I'm interested to hear your thoughts on legislation 
referred to this Committee to construct new museums focused on the 
history of women and Latinos in America. H.R. 1980, the Smithsonian 
Women's History Museum Act, and H.R. 2420, the National Museum of the 
American Latino Act, have broad bipartisan support in the House of 
Representatives. In fact, I'm a cosponsor of both bills myself. I'd 
like to hear your plans for both museums if these bills are enacted.
    Thank you again for attending this hearing and I look forward to 
your testimony.

    Mr. DeFazio. So, with that, Madam Chair, I would love to 
hear from the Secretary. Thank you.
    Ms. Titus. Thank you.
    Well, Mr. Secretary, welcome once again.
    For the record, we have Mr. Lonnie Bunch III, who is the 
Smithsonian Institution Secretary.
    And we are delighted to have you, and look forward to 
hearing your testimony.
    Without objection, our witness' full statement will be 
included in the record.
    And since your written testimony will be part of the 
record, we request that you limit it to 5 minutes. Thank you.

 TESTIMONY OF LONNIE G. BUNCH III, SECRETARY, THE SMITHSONIAN 
                          INSTITUTION

    Mr. Bunch. Is that now working now? OK, thank you.
    My tenure as the 14th Secretary of the Smithsonian is just 
beginning. However, my relationship with the Smithsonian goes 
back to 1978, when I first joined the Institution as a 
historian at the National Air and Space Museum. Then I served 
as the Associate Director for Curatorial Affairs at the 
National Museum of American History. And then finally, I was 
fortunate enough to be the Founding Director of the National 
Museum of African American History and Culture.
    I am pleased and humbled to assume the role of Secretary of 
the Smithsonian Institution, an institution that I love so 
much.
    But for most of our visitors, their first impression of the 
Smithsonian is of our iconic buildings on the National Mall, 
home to some of the Nation's greatest treasures. What they may 
not realize is that the Smithsonian extends far beyond the 
Mall.
    Since our founding, the Smithsonian has been a local, 
national, and global institution, doing work that you might not 
expect. The global team that captured the first image of a 
black hole was directed by Smithsonian scientists at our 
Astrophysical Observatory in Cambridge, Massachusetts. 
Researchers at the National Zoo and the Conservation Biology 
Institute work to reintroduce species that have gone extinct in 
the wild back to their native habitat. Experts at the 
Smithsonian Environmental Research Center track and monitor 
invasive species in every port in the United States.
    Though I have spent my entire career at the Smithsonian, I 
am constantly amazed, because I am learning new things about 
this wondrous institution.
    But all these incredible achievements are enabled by our 
facilities, which face tremendous challenges. Much of the 
Smithsonian's infrastructure is aging, with systems that have 
exceeded their lifespan. As a result, many of our facilities 
fall short of industrial best practices for their care and 
maintenance. This is the result of an accelerated growth in 
Smithsonian buildings that spanned several decades.
    Currently, we have a maintenance backlog of just over $1 
billion. A billion-dollar backlog may sound insurmountable, but 
it is not. Since becoming Secretary, I have had a chance to 
look at this with fresh eyes. In order to be more strategic in 
our approach, I have directed our staff to begin analyzing our 
projects in a new way.
    Rather than simply seeing a backlog in total as $1 billion, 
I want us to analyze our maintenance projects building by 
building. With this approach we have a better sense to 
communicate our existing priorities, develop a better sense of 
where our limited Federal dollars are best spent, and find 
opportunities to address our maintenance needs as part of our 
capital revitalization projects. The strategic combination of 
capital projects with steady growth and maintenance from 
Congress will yield greater results. I believe that addressing 
our maintenance backlog is of paramount importance to the 
future of the Smithsonian.
    We are so fortunate to receive the support of Congress in 
addressing our recent and most pressing infrastructure needs: 
the renovation of the National Air and Space Museum. Because of 
this support, we are on track. Exhibits in the western half of 
the building are scheduled to reopen in 2022, and to fully 
reopen in 2025.
    Beyond the Air and Space Museum, we are beginning to plan 
for the revitalization of two of our oldest buildings, the 
Castle and the Arts and Industries Building. This project will 
address physical deterioration, replace obsolete systems, 
install seismic protection, and incorporate modern 
accessibility and safety standards. Planning for this project 
is an opportunity for us to develop a vision of how best to use 
these historic landmarks to better serve our audiences.
    Projects like this are highly visible components of our 
immediate facility needs. But many of our greatest challenges 
are behind the scenes. We care for 155 million objects, most of 
which are not on display. They are actively used as research 
objects by dozens of Federal agencies and scientists worldwide.
    But sadly, 47 percent of our collection space is 
inadequate. To address this problem, we have begun implementing 
a collection space plan, an ongoing cycle of constructing 
state-of-the-art facilities, relocating at-risk collections, 
and revitalizing substandard spaces.
    We are making steady progress. We recently finished a 
collection space building at the National Air and Space Museum 
Udvar-Hazy Center. It was immediately used as swing space to 
help us move the artifacts from the Air and Space Museum, as it 
is going under renovation. And when the Air and Space Museum is 
completed, that storage space will allow us to remove many of 
the aviation collections that are in poor conditions at the 
Garber facility.
    We have got a planning phase for additional pods at the 
Smithsonian Museum Support Center, and for this project we are 
collaborating with the National Gallery of Art to share 
construction costs and operations of this facility. This is a 
win-win situation for both institutions.
    But as we look at potential future facility needs, there 
are many knowns, but many unknowns. We know that our 
collections will grow. Research continues to advance, and 
history unfolds before our eyes. And to continue to tell the 
story of America, we need to continue to collect collections.
    But we also know that we have to protect those collections 
in light of the changing environment. We know that Washington, 
DC, will have more intense precipitation, increased storm 
surge, a rising Potomac. So we know that the National Mall may 
be at risk. We have already implemented preventative measures. 
We have moved many of the archives of the National Air and 
Space Museum out to the Udvar-Hazy Center. We have relocated 
objects from the ground floors of the National Museum of 
American History building, which is really the building most at 
risk.
    And when we look to build new buildings, we do what we did 
with the National Museum of African American History and 
Culture. We made sure that water protection measures were 
incorporated into the design, so that the Smithsonian, if they 
are mandated to build new museums, we want to make sure that 
climate considerations will be crucial. The prospect of new 
museums is really the great unknown for us.
    The current proposal for a National Museum of the American 
Latino and National Women's History Museum enjoy broad 
bipartisan support. As I have said to you and many others, if 
Congress deems it in the public interest to move forward with 
these proposals, we believe it is critical that any additions 
to the Smithsonian do not negatively impact our existing 
facilities, many of which I will outline for you today.
    A new museum needs funds, both for the creation and the 
long-term operation, the care of collections, the building of 
staff, and the safety and protection of our visitors. It is my 
responsibility to ensure that all our museums, all our research 
centers are appropriately cared for. But I believe, with proper 
support, we can create new museums that exceed our imaginations 
and build on the standards of excellence set by the 
Smithsonian.
    This desire for new museums reflects a need to ensure that 
our Nation's cultural institutions provide a complete and 
inclusive representation of the American experience. We will 
work diligently to tell a broader, more complete narrative with 
the resources we already have. I am proud of the work that we 
have done with the Latino Center and the Asian Pacific American 
Center. And most recently we have launched the American Women's 
History Initiative. All of these efforts work to make sure that 
the Smithsonian, beyond individual museums, creates programs, 
mounts exhibitions, and grows collections.
    The Smithsonian is the steward of the Nation's museums, 
collections, exhibits, research, libraries, and educational 
resources. Our museums are powerful symbols of our shared 
cultural values. The buildings that line the National Mall tell 
the world what it means to be an American. Our cultural 
institutions are greater than the sum of their parts. They are 
more than bricks and mortar. Because of that, I thank you for 
taking the time to hold this hearing and making our facilities 
such a priority.
    It is a privilege to testify before you today, and I 
welcome any questions you have.
    [Mr. Bunch's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Lonnie G. Bunch III, Secretary, The Smithsonian 
                              Institution
    Chairwoman Titus, Ranking Member Meadows, and Members of the 
Committee, thank you for the opportunity to testify today on the 
current and future facilities needs at the Smithsonian.
    My tenure as the 14th Secretary of the Smithsonian Institution is 
just beginning. However, my relationship with the Smithsonian spans 
many years. I originally joined the Smithsonian in 1978 at the National 
Air and Space Museum. Since then, I have served as associate director 
of curatorial affairs at the National Museum of American History. Most 
recently, I was honored to serve as founding director of the National 
Museum of African American History and Culture. I am pleased and 
humbled to assume my role as the Secretary of this Institution, one 
that I love so much.
    For most of our visitors, their first impression of the Smithsonian 
is of our iconic buildings on the National Mall, home to some of our 
nation's greatest treasures. What they may not realize is that the 
Smithsonian extends far beyond the Mall. Since our founding, the 
Smithsonian has been a local, national, and global institution, doing 
work that you might not expect. The global team that captured the first 
image of a black hole was directed by Smithsonian scientists at our 
Astrophysical Observatory in Cambridge Massachusetts. Researchers at 
the National Zoo and Conservation Biology Institute work to reintroduce 
species that had gone extinct in the wild back to their native 
habitats. Experts at the Smithsonian Environmental Research Center 
track and monitor invasive species for every port in the United States. 
Though I have spent most of my professional life at the Smithsonian, 
even I am constantly learning about the amazing accomplishments of my 
colleagues.
    All of these incredible achievements are enabled by our facilities, 
which face tremendous challenges. Much of Smithsonian's infrastructure 
is aging, with systems that have exceeded their useful lives. As a 
result, many of our facilities fall short of industry best-practices 
for their care and maintenance. Currently, we have a maintenance 
backlog just over $1 billion. This is the result of an accelerated 
growth in Smithsonian buildings over several decades.
    A billion-dollar backlog may sound insurmountable, but it is not. 
Since becoming Secretary, I've had a chance to look at it with fresh 
eyes. In order to be more strategic in our approach, I have directed 
our staff to begin analyzing our projects in a new way. Rather than 
seeing our backlog in total, we will be analyzing our maintenance 
projects building by building. With this approach, we'll be better able 
to communicate our existing priorities, develop a better sense of where 
our limited federal dollars are best spent, and find opportunities to 
address maintenance needs as part of our capital revitalization 
projects. The strategic combination of capital projects with steady 
growth in maintenance from Congress will yield greater results. I 
believe that addressing our maintenance backlog is of paramount 
importance to the future of the Institution. We have been fortunate to 
receive the support of Congress, in addressing our most recent and 
pressing infrastructure need, the renovation of the National Air and 
Space Museum. Because of this support, we are on track. Exhibits in the 
western half of the building are on schedule to reopen in 2022, and to 
fully reopen in 2025.
    Beyond Air and Space, we are beginning to plan for a revitalization 
of two of our oldest buildings, the Castle and the Arts and Industries 
Building. This project will address physical deterioration, replace 
obsolete systems, install seismic protection, and incorporate modern 
accessibility and safety standards. Planning for this project is an 
opportunity for us to develop a vision for how to best use these 
historic landmarks to better serve our visitors.
    Projects like this are a highly visible component of our facilities 
needs, but many of our greatest needs are behind-the-scenes. We care 
for 155 million objects in our collections. These items are not limited 
to our on-display artifacts. They are actively used research objects 
for historians and scientists worldwide. Our collections support the 
work of dozens of federal agencies to perform their missions. Whether 
they are used to identify invasive species or to prevent planes from 
making a potentially deadly bird strike, our collections are an 
essential resource for the country. Sadly, about 47% of our collections 
space is inadequate. To address this problem, we have been implementing 
a Collections Space Framework plan. Under this plan, we are engaged in 
an ongoing cycle of constructing state-of-the-art facilities, 
relocating at-risk collections, and revitalizing sub-standard spaces.
    We are making steady progress on our collections needs. We recently 
finished a collections space at the National Air and Space Museum's 
Udvar Hazy Center in Chantilly, Virginia. It was immediately put to use 
as the swing space for artifacts removed from the Air and Space Museum 
on the Mall during its revitalization. Upon completion of that project 
in 2024, the Udvar Hazy storage space will enable us to move and 
restore aviation collections currently in poor condition at the Garber 
facility in Suitland, MD.
    In the same Suitland campus, we are also in the planning phase of 
an additional collections Pod at the Smithsonian Museum Support Center. 
For this project, we have been collaborating with the National Gallery 
of Art to share the costs of construction and operations of the 
facility. This is a win-win for both institutions, and a great value to 
taxpayers.
    As we gain capacity in these new spaces, we can begin to empty our 
inadequate spaces, and ultimately demolish and redevelop the site. We 
are currently master planning for the future development of the 
Suitland campus. Through this steady progress, we can improve our 
existing collections care and prepare for collections needs into the 
future.
    As we look at potential future facility needs, there are many 
knowns, but also many unknowns. We do know that our collections will 
grow. Research continues to advance, and history unfolds before our 
eyes every day. To continue appropriately telling the story of America, 
it's paramount that we collect the objects that tell our ever-evolving 
story.
    We also know that protecting the artifacts and buildings we have 
now will become more difficult. We live on a planet with a rapidly 
changing climate, and our facilities are not immune from it. The 
Washington D.C. Metro area will be impacted by intensification of 
precipitation, increased storm surge, and a rising Potomac. According 
to National Park Service projections, much of the Mall will be at risk 
of severe flooding after a major storm by 2030.
    We are assessing this threat throughout our facilities and have 
already implemented some preventive measures. For example, the archives 
of the National Air and Space Museum have been relocated to the Udvar 
Hazy Center, where flood risk is significantly reduced. Similarly, 
objects have been removed from first floor storage at the National 
Museum of American History, our building with the most severe flood 
risk.
    This assessment also impacts how future buildings are designed. 
When the site of the National Museum of African American History and 
Culture was selected, we knew from the beginning that there was an 
elevated flood risk, so water protection measures had to be 
incorporated into its design. Should the Smithsonian be mandated to 
construct any new museums, climate considerations will be a crucial 
part of any site selection and planning.
    The prospect of new museums being created is the great unknown for 
the Institution's future. The current proposals for a National Museum 
of the American Latino and a National Women's History Museum enjoy bi-
partisan support here in the House of Representatives. As I have said 
to you and many of your colleagues, if Congress deems it in the public 
interest to move forward with these proposals, we will believe it is 
critical that any additions to the Smithsonian do not negatively impact 
Smithsonian's pressing infrastructure and collections space needs that 
demand our immediate and on-going attention as I have outlined for you 
today.
    A new museum requires funds for both the creation and long-term 
operations of the facilities, the care and preservation of its 
collections, the safety and protection of our visitors, and the on-
going success of its programs. It is my great responsibility to ensure 
that all of our museums, research centers, libraries, and educational 
centers are appropriately cared for. Only then can we create new 
museums that exceed our imaginations and build on the standards of 
excellence set by the Smithsonian.
    The desire for new museums reflects a need to ensure that our 
Nation's cultural institutions provide a complete and inclusive 
representation of the American experience. While Congress deliberates, 
we will work diligently to tell a broader and more complete narrative 
with the resources already at our disposal.
    An example of a current effort to expand inclusivity is the 
Smithsonian American Women's History Initiative, Because of Her Story 
which launched in 2018. Because of Her Story represents a pan-
institutional embrace and celebration of women's history as an integral 
part of the American story. Three Because of Her Story exhibitions have 
opened this year, and five more are slated to open within the next two 
years. Because of Her Story funded 10 internships in summer 2019. 
Additionally, there are 14 public programs or educational efforts 
currently funded. This is only the beginning of a transformative way of 
thinking about our content. I want to thank Congress for their on-going 
support and commitment to this important priority.
    The Institution has been working diligently for more than twenty 
years to increase the Latino presence throughout the Smithsonian's 
museums, collections, research, and programs. The Smithsonian Latino 
Center was created in 1997 to promote Latino presence within the 
Smithsonian. The Center is not represented in one physical location; 
rather, it works collaboratively with the Institution's museums and 
research centers, ensuring that the contributions of the Latino 
community in the arts, history, national culture, and scientific 
achievement are explored, presented, celebrated, and preserved.
    Our museums and programs have increased their collections and 
mounted scores of exhibitions and programs that relate to Latino 
American history. Currently, the Smithsonian Latino Center is preparing 
to unveil the first Latino gallery to open on the National Mall. The 
new permanent Molina Family Latino Gallery will open in the National 
Museum of American History in the fall 2021. The Latino Center 
currently has fifteen curators and nine curatorial assistants who we 
have added to our Museum staff in the last several years. We expect 
that many more diverse staff will be added in the future.
    The Smithsonian also founded the Smithsonian Asian Pacific American 
Center (APAC) in 1997 which has served to further the inclusion of 
Asian Pacific Americans across the Smithsonian's collections, research, 
exhibitions, and programs. APAC aims to bring the diversity and 
complexity of Asian Pacific America--the fastest growing ethnic group 
in the U.S. with a population of almost 20 million--to the Smithsonian. 
The Center is currently fundraising for the first permanent gallery 
dedicated to Asian Pacific American history, art, and culture in the 
Smithsonian.
    The Smithsonian's museums are more than a space to mount exhibits, 
to conduct research, or to educate visitors. They are powerful symbols 
of our shared cultural values. The buildings lining the National Mall 
tell the world what it means to be an American. They represent our 
history, our ingenuity, and our creativity. You need only ask the 
people of Brazil, who lost their National Museum, or the people of 
France who now must rebuild Notre Dame. Our cultural institutions are 
greater than the sum of their parts, they are more than brick and 
mortar.
    Because of that, I thank you for taking the time to hold this 
hearing, and making our facilities such a priority. It is a privilege 
to testify today, and I welcome any questions you may have.

    Ms. Titus. Thank you very much, Mr. Secretary. We will now 
move on to the Members' questions. Each Member will be 
recognized for 5 minutes, and I will start by recognizing Mr. 
DeFazio.
    Mr. DeFazio. Thanks, Madam Chair. I have to meet with the 
head of maritime safety for the Coast Guard, so I appreciate 
your accommodating my schedule.
    So, Mr. Secretary, the Smithsonian, obviously, has kind of 
a split personality here. Sixty-two percent of the budget comes 
from the Feds, and 100 percent of the maintenance, and then you 
have got to come up with the balance.
    But again, this points us back to authorization, 
appropriations. I have been an authorizer for 33 years, and we 
get a little sensitive about these things. And there have been 
a couple of instances that were of concern where, at one point, 
you purchased a building and then paid the trust back with 
Federal lease payments, and then you sold it for a profit, and 
put the profit in the trust, and then leased it back again. 
Again, all without sort of, I would say, proper oversight.
    And now you want to buy a new headquarters building. And 
you have asked the appropriators to allow the Smithsonian to 
use Federal rent payments to pay the trust back for the 
purchase, but the building will be owned by the trust and not 
the Federal Government. And at least your predecessor said the 
Smithsonian does not need authorization for that.
    Do you agree with that?
    Mr. Bunch. I think that what is clear to me is that the 
Board of Regents feels that they have great statutory 
authority, based on the charter, to enter into work with the 
trust. That is the mission of the Smithsonian.
    I think the most important issue for me is to say, 
candidly, the Smithsonian has made a lot of mistakes, in terms 
of communication, in terms of really working effectively with 
the authorizers.
    And the one thing I can say to you is, if I look at my 
career over the last 14 years, it has been clear that I have 
worked very well with Congress, and I have really embraced 
transparency.
    So my notion is that the Smithsonian will not make those 
mistakes again. And one of the things I have done is I have 
asked the Smithsonian staff to work together to bring together 
a group that will actually pull together a periodic white paper 
for Members of Congress, so that any issues that I think are 
important that need to be raised, you will see them in a timely 
fashion. I am committed to making sure we don't repeat the 
mistakes of yesterday.
    Mr. DeFazio. OK. Well, I appreciate that. And it sounds 
like perhaps we can begin to turn the page here, and that would 
be good, because we want to be advocates for you and help with 
these issues.
    As far as I know, the annual appropriations bills at this 
point--I mean, you are recognizing Congress has to have a role, 
not just the Board of Regents--are authorizing your leasing 
authority. And is that--do you understand that, that that is 
the way it has been working?
    Mr. Bunch. Oh, absolutely.
    Mr. DeFazio. Right.
    Mr. Bunch. That we have statutory--and you make sure that 
the Federal leasing authority is something that you grant to 
us.
    Mr. DeFazio. Right. Well, you have--40 U.S.C. 301 doesn't 
allow for it to be sort of outside of the process. So I 
appreciate some recognition of that on your part.
    At this point, I am going to yield my time back to the 
chair for her more incisive questions, and I have got to run 
off and try to be an expert on maritime safety.
    So thank you, Mr. Secretary.
    Ms. Titus. Thank you, Mr. Chairman. I just will continue 
that, too, but I would like to go back to the backlog that you 
mentioned, the billion-dollar backlog.
    You said it is not insurmountable and you have some plans 
to address it. Could you lay out for us some of those plans, 
how you are going to retire it?
    Since we already provide about 70 percent of the overall 
budget, can you go somewhere else for the money as you look at 
these programs in a more piecemeal fashion, rather than just 
coming back for an additional appropriation?
    Mr. Bunch. I think we are going to look at this in several 
different ways.
    What is important to me is that this is one of the 
priorities for the institutions crucial to our future.
    It seems to me that, one, I do want to acknowledge the fact 
that you have helped us by giving us more resources to wrestle 
with our deferred maintenance and our backlog. That is crucial. 
And we are working now to think about what is the best strategy 
to do that, moving forward.
    And what we realized is, one, is to have a better 
systematic approach to what is our backlog, and to be able to 
understand what are the priorities so that we can really make 
decisions about today and for tomorrow.
    We also realized that one of the key things we have to do 
is, in addition to spending money for maintenance, is to make 
sure we are spending money on preventative maintenance. And for 
us, this is really the key, and we have really begun to rethink 
how we do that to make sure that we can maintain the newest of 
buildings, as well as many of the older buildings.
    Part of what we want to try to do is recognize that, when 
we do our capital revitalization projects, that what we want to 
do is use those as a way to get at some of this backlog. If you 
look, for example, at what we are doing with the Air and Space 
Museum, that allows us, in addition to the rejuvenation of that 
building, it allows us to address more than $200 million of 
deferred maintenance. So we are looking at different strategies 
to do this.
    We also always look to see if there are private donors that 
can support us. But the truth of the matter is very few donors 
are interested in providing for that kind of back-of-the-house, 
nonvisible. But it doesn't mean that we can't think creatively 
about, when we are looking for support for major exhibitions, 
again, a part of that being peeled off to help with that. We 
are looking at a variety of ways to do that.
    But I think the systematic approach, really marrying the 
capital rejuvenation with backlog, and really doing a much 
better job of preventative maintenance, will allow us to really 
take a good whack at this. The reality is that we would love to 
be at 3 percent of the CRV, which would allow us not only to 
end backlog, but to begin to cut them down in significant ways. 
So we are looking at all the different ways we can do it. But I 
do think this new systematic approach will at least give us 
clarity.
    Ms. Titus. Thank you. I know at one point it was 
recommended that you do, like, 2.8 percent, and the reality was 
about 1 percent.
    Mr. Bunch. We are at 1 percent, and we are looking at what 
are other possibilities.
    Ms. Titus. I want to go back to the chairman's questions 
about the statutory authorization for the purchase. Do you have 
an internal document that justifies that purchase, or have you 
just relied on just the way it was done before, or have the 
appropriators said it is OK? Because at one point the House 
didn't agree with the Senate on what was going to be allowed 
for the Smithsonian to do, in terms of this kind of condo 
arrangement.
    Mr. Bunch. Well, I think what we are relying on is the sort 
of charter and the history of the Smithsonian. But what I would 
like to do, for the record, is go back and have the experts who 
know this better than I prepare a response for you in that 
area, because I am a pretty good historian, but not a good 
lawyer.
    Ms. Titus. All right, thank you. And we will ask them to do 
that.
    Well, would you just address a little further the two new 
museums that are being proposed, and how do we find somebody 
like you to head up those efforts? Is that going to be 
possible?
    Mr. Bunch. You flatter me. I think that it is important to 
realize that the Smithsonian, given the right resources, can 
make institutions that are magical. And I think we can find 
people that can do that. The question, really, is can we really 
get the resources that are needed, both Federal and private, to 
build the institutions, but also to maintain them? And can we 
do it in such a way that the Smithsonian continues to receive 
the resources it needs to maintain its current programs and 
current buildings? That is the challenge.
    With that done, there is no doubt in my mind we can make 
major institutions that will make the world proud.
    Ms. Titus. And in the meantime, though, you have 
initiatives going in both of those areas, I believe.
    Mr. Bunch. What is key for me is my whole career has been 
about expanding the canon, making sure that the diversity of 
America is explored in many ways. And I am very proud of what 
the Smithsonian has done.
    I think the Latino Center, which has been around for 20 
years, has really done something crucially important. It has 
embedded curators in different museums who care about Latino 
culture.
    And, as you know, in a museum, curators are the people that 
shape everything, even more than directors. And to have that 
support, congressional support that allowed us to do that, 
really does begin to make a difference. So my hope is that, 
even if there isn't a museum, we will continue to make sure 
those stories are told very powerfully.
    And I am very proud of the new--relatively new initiative 
on--the American Women's History Initiative, because I think it 
is crucial for us to recognize that we at the Smithsonian 
should not be telling stories about women just because they are 
separate stories. We should be saying that the story of women 
is really the best lens to understand what it means to be an 
American. So therefore, all the institutions that touch that as 
part of the Smithsonian should be doing that. And so this new 
Women's History Initiative is allowing us to do that.
    So the best part about that is that, if there are museums, 
we now have people that are working in those areas, collections 
are beginning to be built. Obviously, they would be a 
foundation upon which any new museum would build.
    Ms. Titus. I know that is true in Las Vegas with the 
National Atomic Testing Museum. There is a whole oral history 
project of women who were there, who were certainly in the 
minority, but who have an interesting story to tell. So----
    Mr. Bunch. And I think it is so interesting, because I have 
listened to that oral history project. And what it really tells 
you is how central they were to the project itself. Right? And 
so that, in essence, it is not an ancillary story, it is the 
central story. And that is what I would like the Smithsonian to 
do when it comes to women's history.
    Ms. Titus. Thank you. I may come back in a minute, but we 
will move ahead.
    Mrs. Miller, you will be recognized.
    Mrs. Miller. Thank you, Chairwoman Titus, for having this 
today.
    And welcome to our committee.
    Mr. Bunch. Thank you.
    Mrs. Miller. I believe that art and science and culture are 
so very important, a part of human history. In my little State 
of West Virginia, people just associate beautiful trees and 
coal mines. But we have culture, we have Lebanese people, 
Italian people. There are still pockets of individuals that 
speak almost Elizabethan English. This culture is so important.
    I must say that I am a little biased, because I was a 
member of the West Virginia Commission on the Arts for a number 
of years. So what you do I hold very dear to my heart, as well. 
And I think it is very important for our future generations 
that they are able to share in our culture, our diverse 
culture, and the art, and just how we can educate people.
    And, you know, now that we understand that STEAM education 
is so important, and that the arts do hold a wonderful part to 
our lives, in your testimony you mentioned disaster-resistant 
building design. Do you plan to include disaster-resistant 
building updates in your revitalization plans?
    Mr. Bunch. Because the issue of sustainability is so 
important to me, as evidenced by the work we did at the 
National Museum of African American History and Culture, we 
have taken on a desire to make sure that everything we do is 
pointing us toward sustainability.
    As we are beginning to look at what we are redoing with the 
Castle, and the Arts and Industries Building, we will look and 
see what are the things we can do to make it sustainable, to 
make sure that it is protected against disaster.
    It is early, so we don't have any plans, formal plans. But 
the goal, the commitment is to make sure that these buildings 
contribute a sense that the Smithsonian is modeling the kind of 
sustainability we expect.
    Mrs. Miller. Can you tell us about how you are analyzing 
maintenance on a building-by-building basis?
    Mr. Bunch. What we are looking at is, instead of saying, 
you know, we have a billion-dollar backlog and it is all lumped 
together, what I want to do is to be able to go through every 
system in every building, so we know when they are at the end 
of their lives, where we are now, what are the ones that are 
most crucial. And that would then allow us to, every year, 
begin to make adjustments to make sure that we are spending our 
money at the most important parts of the institutions, 
facilities that need to be preserved and revitalized.
    I think that, by doing that, it will also give us a 
discipline to be able to make sure that we are spending the 
time on preventive maintenance, as well as fixing old and 
lasting problems.
    Mrs. Miller. Are you making progress in terms of 
prioritizing that funding?
    Mr. Bunch. I think we are. What we have done is I have 
asked the staff to really make this the priority, and so we are 
working on pulling that data together. I don't have it yet, but 
it is something I have asked the staff, and I will have.
    Mrs. Miller. You know, even in your own home, you put the 
date on the hot water tank when you replace it. You put the 
date on the furnace, so you know when you have done work on 
your roof. I am sure it is the same, just millions of dollars 
larger.
    What are some of the maintenance challenges that you 
foresee in the next couple of years?
    Mr. Bunch. Well, I think the biggest challenge is that, for 
so long, the Smithsonian has created new facilities with not 
corresponding maintenance support. And so, really, it is now to 
basically turn that around and put the resources and put the 
time and energy to make sure that we don't continue--for this 
hole to get bigger and bigger and bigger.
    So my goal is to, basically, one, bring a systematic 
approach to it, and then look as creatively as we can to 
address this. We will always need congressional support to help 
do that.
    Mrs. Miller. Absolutely. And can you tell us about the 
specific changes that you plan to make in revitalization of the 
Castle and the Arts and Industries Buildings?
    Mr. Bunch. I think it is early in the work to be able to be 
very specific, except that I can say that the Arts and 
Industries Building and the Castle are two of the buildings 
that mean a lot to me. The Arts and Industries Building, as you 
know, has spent a lot of money to take care of the exterior, 
that we have--we have given stability. The roof is strong. But 
it is still a shell.
    And at this stage what we are doing is we are testing the 
use of it. We did the installation, my installation, in there. 
We have done things with the Folklife Festival. We want to see 
how that space can be fixed, and how it can be used. The 
challenge is that we still have to fix all the internal 
systems. There are issues of accessibility, safety that have to 
be addressed. But what we are doing is we are putting together 
a team of people that are looking at the 175th anniversary of 
the Smithsonian. And what we want is we want the exhibition to 
be in that building. And we want to use that to begin to 
actually move pieces in that will make that building more 
useful again, and usable, and test what we can do.
    The truth of the matter is the Arts and Industries Building 
is still a major work in progress, because there is so much 
that needs to be done.
    In terms of the Castle, we are really at the preliminary 
stages. What I have asked is that I want to look at the Castle 
as more than an office space. How is it something that we serve 
the visitors better, the space is more accommodating to 
visitors? So we are really beginning now to look at that plan 
to say how is this both a space for offices and people, but how 
is it also something that provides auditory, or provides space 
to engage the public more effectively?
    So right now we are in the beginning stages of those plans, 
and I am just getting briefed on that now.
    Mrs. Miller. Thank you, Mr. Bunch. I yield back my time.
    Ms. Titus. Thank you. The Chair now recognizes Ms. Holmes 
Norton to ask questions for 5 minutes.
    And remember, this is your constituent.
    [Laughter.]
    Ms. Norton. I won't let anybody forget it.
    And I want to congratulate you once again, Mr. Bunch, on 
what you have done, and on the vote of confidence you really 
have had in your past work, which is why you are where you are 
now.
    Actually, I am intrigued by the real estate deals that the 
trust has done, and almost want to congratulate you on them. 
The Congress doesn't look like it is going to fork over any 
money soon. Some of them raised a little eyebrows. But as long 
as they don't violate the Antideficiency Act, it seems to me 
that we will let you be as experimental as you can be.
    This headquarters move from the Castle to a building 
where--it looks like you are already in part of that building 
on Maryland Avenue. Is that a building you would like to buy in 
its entirety?
    Mr. Bunch. What we did, as you recall, is that, after 
talking to GSA to get some guidance, we did an RFP where there 
were five, basically, sites that were in the running. Two were 
very conducive. One was an empty site that needed to--had 
construction, and the other was Cap Gallery. And part of what--
where we are leaning towards now.
    And part of the issue for us was where can we consolidate 
the most of our staff, where can we be sure we are not going to 
run into building construction delays and the like, and, also, 
in some ways, because there has been so much investment, if you 
will, in the Cap Gallery space, in terms of our emergency 
control centers, and archives there, that it made better sense, 
once we analyzed everything, to acquire portions of that 
building.
    And the challenge is as you framed it. What we are 
attempting to do, we would like to acquire one complete tower 
and part of the second. But in essence, we enter into a 
partnership, that we have a partner who is going to handle some 
of the retail, some of the parking, some of the spaces we don't 
need. And then, ultimately, it would allow us to provide the 
adequate security and completely in one tower, and then 
appropriate measures for security in the second tower.
    I think, in a way, there is no doubt this could be seen as 
a little unorthodox. But the real challenge is we need to 
think, as the Smithsonian, how to be more nimble in the 21st 
century. And I think working to consolidate the leases, 
thinking about new ways of ownership will allow us, I think, to 
ultimately save the Federal Government money and serve the 
taxpayer better.
    Ms. Norton. And you think--again, along with your deals, 
that you have the funds to purchase this building?
    Mr. Bunch. What we have, what we are asking, is the 
opportunity to--we will get a bond that will pay for it. What 
we would like to be able to do is use the Federal rent money 
that we are receiving to put that into the trust account and 
use that to pay down the debt.
    Ms. Norton. And you think you can work the deal that way?
    Mr. Bunch. We hope you will let us work the deal that way, 
yes.
    Ms. Norton. Well, considering that we are not appropriating 
money, it seems to me we have got to listen very carefully on 
how you intend to do it, because your creativity is welcomed.
    I am concerned, though, that the Smithsonian--in fact, the 
GAO did a study and found that those with independent authority 
are not in compliance with this reduced footprint that the rest 
of the Federal Government is in. I am actually for the reduced 
footprint. And it seems to be working out very well.
    Remember, we are not talking about space for exhibitions. 
We are talking about spaces which--sometimes Federal employees 
work at home.
    In considering new space, have you considered this GAO 
report which criticizes not only you, but all those that have 
independent leasing authority? Have you considered bringing 
yourself, as you look for more space, into compliance with this 
reduced footprint that other agencies are held to?
    Mr. Bunch. What we are looking to do is, yes, is look at 
that. As part of, let's say, the Capital Gallery, some of the 
space is already reconfigured. But any new space that we would 
use, we would come in compliance. That is really important to 
us.
    The other thing that is crucial is that, as we are trying 
to anticipate the future, we are trying to make sure we have 
enough space for swing space when we move people out of the 
Castle.
    But even more importantly, if we are asked to build new 
museums, when we were asked to build the National Museum of 
African American History and Culture, it took us a while to 
find the space, so I couldn't hire staff. So what I am trying 
to do is give the Smithsonian as much flexibility as possible, 
so that if we are asked to take on more, we can handle that.
    Ms. Norton. I see my time has expired. Thank you very much.
    Ms. Titus. Just to your earlier question, I would point out 
again that the fiscal year 2020 House appropriations bill 
specifically denied the Smithsonian's request to use the money 
from the rent to pay back the trust for the purchase of this. 
And we don't know what is going to happen with that bill, or if 
we are going to do a continuing resolution, or there will be a 
conference, but that will be a challenge. Is that correct?
    Mr. Bunch. I would have to doublecheck that. I am not 100 
percent sure, but that sounds correct. They are nodding and 
telling me it is correct.
    Ms. Titus. All right, thank you. Now [inaudible].
    Miss Gonzalez-Colon. Thank you, Madam Chair. And good 
afternoon.
    First I want to discuss the proposed National Museum of the 
American Latino, H.R. 2420. It has already 244 cosponsors, as 
we speak. And having experience of the National Museum of 
African American History and Culture, I would like to know what 
kind of impact a museum like this and the women's museum can 
help us out.
    Mr. Bunch. I am sorry, I didn't hear the last part of what 
you said, I am--I apologize.
    Miss Gonzalez-Colon. I support the National Museum of the 
American Latino. And I know, at the time the National Museum of 
African American History and Culture was in the research 
process, a lot of questions were asked.
    My question to you will be what is needed to get the 
National Museum of the American Latino finalized?
    Mr. Bunch. I think there are several things because, if 
there is one thing I know how to do, it is how to build a new 
museum. And I think that part of it is recognizing that it is a 
longer term commitment, that getting the resources to build the 
institution is one thing, but getting the resources to make 
sure you can hire the right staff, that you can build the 
collections that are needed, and that you have got the 
resources for the long run is really some of the challenges.
    I also think that, in a very practical way, that when the 
National Museum of African American History and Culture was 
asked to be built, it was a 50/50 public-private partnership, I 
know that is the plan for the National Museum of the American 
Latino. But there wasn't a mechanism to ensure when those 
resources would be released, and that made it more difficult 
for planning, and took extra years to get the process done.
    So there are some very specific things that I can say that 
would help move that process along. But I think the most 
important thing is to recognize that it is going to have to not 
only have the resources to open, but also resources to support 
the Smithsonian. Because one of the most important things that 
happens when a new building comes on is that the maintenance, 
the security--there are central institution activities that are 
carried on independently of the museum, and we are going to 
need to give the Smithsonian the resources to be able to do 
that, as well.
    Miss Gonzalez-Colon. How can the Smithsonian Institute 
either provide already leased space for a new museum, or 
acquire the necessary new space for a prospective museum?
    Mr. Bunch. I think that, according to the legislation, the 
Smithsonian would be asked by--the Board of Regents would be 
asked to find the space, and we would look and see what are the 
available spaces. It would be based on everything from visitor 
access--there are environmental issues that we would look at--
--
    Miss Gonzalez-Colon. Is it realistic to still use the 150 
feet per person that GSA is requiring?
    Mr. Bunch. It is hard to use that for a museum, itself. It 
is easier for office space, but it is hard to use that for a 
museum.
    Miss Gonzalez-Colon. In the last Congress this committee 
worked with the administration to pass H.R. 4009, the 
Smithsonian National Zoological Park Central Parking Facility 
Authorization Act, and will leverage using private financing to 
allow construction of the new parking at the National Zoo. But 
later on the Smithsonian decided it will not proceed to this 
project.
    How is the Smithsonian planning to address the parking 
needs of the National Zoo?
    Mr. Bunch. I think that that notion, when we were going to 
build the parking at the zoo, ultimately the partner that we 
worked with wasn't effective, and we felt it wasn't the right 
partner for us to do that.
    I think that, at this stage, the Smithsonian is still 
always working with the District of Columbia to look at how we 
handle parking.
    One of the challenges of a new building is just the simple 
fact that it will bring more people, and we do what we do, 
which is encourage people to take public transportation.
    Miss Gonzalez-Colon. How can you decide whether you lease 
or buy new land? What is the measure for that?
    Mr. Bunch. Well, the goal is always to get out of all these 
leases. These leases are things that, ultimately, will keep 
going up as new businesses--Amazon is coming to Virginia. So 
the goal is to try to limit as many leases as we can. And that 
is why owning a building, allowing us to consolidate leasing 
and staff, is really, ultimately, more a better business model, 
and more effective down the road.
    Miss Gonzalez-Colon. My question is made because one thing 
is having a new building or a new facility. There is a 
Smithsonian--one is a temporary facility, and another one is a 
permanent one. How do you manage with--I mean, do you consult 
the GSA, with the Government Accountability Office, or any 
other entity about the interest when you buy a property, 
whether it is better for the taxpayers' money when you need to 
put that money in front, than actually having a lease? Is that 
something that you work with the Federal agencies, or is it 
just a decision from the Smithsonian Institute?
    Mr. Bunch. We have, for example, over this last--thinking 
about buying this new building, we did consult with GSA, got 
their guidance. We clearly are comfortable, as we move forward, 
looking at spaces that GSA may have. We would be willing to 
have those conversations with GSA.
    Miss Gonzalez-Colon. You did that? You did have those 
conversations?
    Mr. Bunch. We had some conversations where we asked for 
guidance from GSA as we went forward with the RFP.
    Miss Gonzalez-Colon. My time expired. Thank you, Madam 
Chair.
    Ms. Titus. [Inaudible.]
    Mr. Brown. Thank you, Madam Chair, Mr. Secretary. 
Maryland's Fourth Congressional District that I have the 
privilege to represent is home to the Museum Support Center, 
the Smithsonian's principal off-site collections, preservation, 
and research facility. It is located, as you know, in Maryland: 
Suitland, Maryland. The facility houses 55 percent of the 
Institution's irreplaceable national collections, with 
approximately 300 full-time and about 50 rotating personnel. 
The center maintains the latest in museum technology and design 
to provide optimum conditions for the preservation and study of 
the Smithsonian's collections.
    I want to ask you a few questions about that. But before I 
do I just want to take this opportunity to say I love the 
number 14. I love it for two reasons. One is I love our 14th 
Librarian of Congress, and I deeply admire our 14th Secretary 
of the Smithsonian Institution. I want to congratulate you.
    No doubt your successful career will become a very storied 
career as an educator, historian, curator, director, president, 
founder, and now Secretary. And having served in museums from 
Chicago to California and our Nation's Capital, I really, 
really appreciate your contributions to recording and 
preserving our Nation's history, our heritage, our culture, and 
who we are, and what we are, as a people. So, from the bottom 
of my heart, I really want to thank you.
    Mr. Bunch. Thank you.
    Mr. Brown. Now my question. The Smithsonian has a 30-year 
collection space framework plan that would renovate almost 
700,000 square feet of existing storage facilities and add an 
additional 1 million square feet of storage, for a total cost 
of $1.3 billion. Can you tell us what the status of the plan's 
funding is, and how would the plan affect the Smithsonian's 
current $1 billion maintenance backlog?
    Mr. Bunch. As a former museum director, as a curator, the 
thing that I know is most important are the collections. And I 
think, in 2015, we came with--that collection framework was one 
of the most important things the Smithsonian did in that area. 
Because, for the first time, the Smithsonian understood exactly 
the status of all of its collections, all of its buildings, all 
of its housing. And as a result of that, it has allowed us to 
make very strategic decisions, in part with support from 
Congress, to be able to address that.
    And I am pleased to say that the Smithsonian has made some 
major steps. I think, as you know, that we have entered into an 
agreement with the National Gallery of Art to construct a new 
pod out in the Suitland campus. And I think that is going to be 
really important as a way for us to begin to collaborate more 
effectively, but to also share the cost of doing these things.
    I am also so pleased that what we have looked at are 
looking at some of the problems with the old Garber aviation 
sites. We have been able to decontaminate them. We have also 
completed a new pod out at Dulles, which allows us to take some 
of the material, once the swing space is done, once we reopen 
the Air and Space Museum, some of the material that were in 
weakened places in facilities that were substandard, to move 
them into the new facilities.
    I think we have also, because of this plan, been able to 
look at Suitland, and look at where we have been able to bring 
in new equipment that is more efficient, more space saving.
    And I think maybe the most important thing for me is that 
we are in the process of finishing now a master plan just for 
the Suitland campus to really help us think more creatively, 
help us figure out what are the resources we need. Because the 
Suitland campus is crucial. It is not going to solve all the 
problems, but being able to use that campus to its fullest 
extent will help the Smithsonian continue to be the institution 
that preserves America's culture.
    Mr. Brown. Thank you. And just to follow up on that, 
because you now just referenced that, the Suitland Collections 
Center master plan, which you just mentioned, and that is going 
to be completed, I believe, next year. Can you give us any 
preview on any additional storage facility projects that might 
be underway, or that are planned for the near future in 
Suitland?
    Mr. Bunch. I would love to tell you that, but we are still 
working on that final plan.
    Mr. Brown. Excellent. OK. My time is about to expire, so I 
won't burden you with another question.
    Thank you, Madam Chair. I yield back.
    Ms. Titus. Thank you. I apologize, Mr. Secretary, that more 
of us are not here. Some of our Members are in impeachment 
hearings right now. Not that that is more important, but that 
is where they are.
    Mr. Bunch. I understand.
    Ms. Titus. I would ask, does anybody have any additional 
questions?
    Mr. Brown. Well, I do have an additional question, then, 
Madam Chair. Thank you.
    According to the fiscal year 2020 budget request to 
Congress, the Smithsonian is only requesting $6.5 million for 
the facility's capital program at the Suitland Collections 
Center, $5.5 million for revitalization, $1 million for 
planning and design. I think that is on page 10. The total 
requests for the facility's capital program in fiscal year 2020 
was $210 million.
    So do you believe that $6.5 million is sufficient funding 
for a project that should be prioritized?
    Mr. Bunch. I think that the notion was that we have got to 
make sure that we spend the money that is needed in Suitland. 
We have also got to take care of Dulles to be able to have this 
kind of ripple effect.
    So some of those choices are really about how do we make 
sure that we, in a logical way, are able to address this issue. 
I think that I will go back and relook at that, and make sure I 
understand that more fully. But that is my understanding.
    Mr. Brown. Thank you, Madam Chair. I yield back.
    Ms. Titus. Miss Gonzalez-Colon.
    Miss Gonzalez-Colon. Thank you, Madam Chair. I've just got 
one extra question.
    I do know how important it is for the American people to 
access the collections of the Smithsonian. But I also know that 
many people cannot afford to pay a ticket to Washington, DC, 
and actually get the opportunity to visit those museums. And 
coming from Puerto Rico, I mean, we do have a lot of those 
people.
    What is the Smithsonian doing to allow access for those 
collections for people living in rural areas, or areas that are 
not in Washington, DC?
    Mr. Bunch. One of my priorities as Secretary is to realize 
that the Smithsonian should touch every school and every home.
    And one of the ways to do that is by really embracing the 
virtual Smithsonian, to really think about how do you create 
something that is not the Virtual Museum of American History or 
the Virtual Art Museum, but is the Smithsonian, that allows the 
public to both have access to those amazing collections, but 
also the expertise of the scholars at the Smithsonian, and how 
to make sure that those collections also begin to shape the 
educational opportunities of students.
    So I think that one way is to really think, with the new 
technologies, how does the Smithsonian virtually touch 
everyone?
    But then it is also building on things we do even better. I 
think that the Smithsonian Institution Traveling Exhibition 
Service, which goes around the country, really does serve so 
many communities, large urban communities and also small, rural 
communities, projects like the Museum on Main Street, which 
brings stories to rural communities, in sites that might not be 
seen as museum sites. It is really an important contribution.
    I think the final piece is for the Smithsonian to work more 
effectively with its Affiliations program. There are hundreds 
of institutions around the country that are affiliated with the 
Smithsonian. Let us do a better job of utilizing them as places 
to bring content, to bring collections. And that would allow 
the Smithsonian to extend its reach.
    So I am committed to the kind of virtual Smithsonian, and 
recognizing that our goal ought to be to touch every home, to 
touch every school.
    Miss Gonzalez-Colon. Thank you for your service.
    Ms. Titus. Well, thank you very much for being with us 
today, Mr. Secretary.
    I would just ask you in closing two things.
    One, you can tell from a number of members of the committee 
that there is concern about this new purchase, because it is 
outside the box, and we want to be sure that it is properly 
authorized, it is not going to run into trouble down the road. 
So will you loan us your gentleman in the blue shirt to meet 
with our staff to answer some of those questions, and then we 
won't have to go into them today with you?
    Mr. Bunch. Absolutely.
    Ms. Titus. Or whoever is appropriate. But he seems to nod 
or shake whenever something is asked.
    And my second request is that you will just look to us, and 
have us be a partner with you, and not just focus everything on 
appropriations, but remember that we are here, and this 
committee wants to be engaged, and we want it to be a positive, 
collaborative relationship.
    Mr. Bunch. I agree. My history has been a good, 
collaborative relationship throughout Congress, and I will 
continue to do that.
    Ms. Titus. Well, thank you very much.
    Mr. Bunch. Thank you.
    Ms. Titus. All right. Let me get back to the script here, 
do this officially.
    All right, I will now ask unanimous consent that the record 
of today's hearing remain open until such time as our witnesses 
have provided answers to any questions that may be submitted in 
writing, and unanimous consent that the record remain open for 
15 days for any additional comments and information submitted 
by Members or witnesses to be included in the record of today's 
hearing.
    Without objection, so ordered.
    So, if no other Members have anything to add, this 
committee stands adjourned. Thank you.
    [Whereupon, at 3:03 p.m., the subcommittee was adjourned.]



                                Appendix

                              ----------                              


Questions from Hon. Peter A. DeFazio to Lonnie G. Bunch III, Secretary, 
                      The Smithsonian Institution

    Question 1. In June of 2019, the Board of Regents approved of the 
purchase of the 631,629-square-foot Capital Gallery building near 
L'Enfant Plaza for headquarters and administrative space.
    Question 1.a.  What statutory authority is the Smithsonian using 
for this purchase?
    Answer. The Smithsonian is relying on the statutory authority of 
the Board of Regents to conduct the business of the Institution through 
use of its trust (nonfederal) assets in a manner designed to further 
the Smithsonian's mission. See 20 U.S.C. Sec. Sec.  42(a), 55, 56, 57. 
Please see the attached memorandum for a more detailed explanation.

    Question 1.b.  Is there an internal legal document that justifies 
this purchase?
    Answer. Yes. Please see the attached memorandum.

    Question 2. This is an unusual transaction because the Smithsonian 
plans to purchase some--but not all--of the building from Boston 
Properties.
    Question 2.a.  Is there a name for this type of transaction? Is the 
Smithsonian purchasing a condo?
    Answer. The Smithsonian will be purchasing Assessment & Taxation 
lots in the building. In essence, Boston Properties will create 
Assessment and Taxation (``A&T'') lots covering the portions of the 
Building transferred to the Smithsonian. First, Boston Properties will 
prepare a lot division plan and metes and bounds descriptions that 
describe the A&T lots covering the portions of the building offered for 
purchase and submit a Division of Lots Request Application including 
the lot plans and descriptions with the District of Columbia's Office 
of Tax and Revenue. Boston Properties will then convey clear title to 
the subdivided lots to the Smithsonian in fee simple at the Closing. 
The subdivision of property is a normal transaction in the commercial 
marketplace.

    Question 2.b.  Is there precedence for this? Are you aware of GSA 
or any federal agency purchasing a portion of a building from a private 
sector owner?
    Answer. This is not a model we commonly see by federal agencies; 
however, we are aware of Enhanced Use Leases (EUL), used by the GSA to 
partner with private sector companies. In these arrangements, GSA 
leases federally owned ground to private companies. The companies then 
construct major facilities on the land, resulting in complex shared 
interests of the resulting assets. The EUL provides benefit to the 
private sector and the government provided there are appropriate 
contractual provisions used to structure these partnerships.

    Question 2.c.  Who will own the common areas of the building?
    Answer. Common elements of the West Building will be owned by the 
Smithsonian. Some common elements of the East Building and the corridor 
between the two structures will remain under the ownership of Boston 
Properties.

    Question 2.d.  Will the Smithsonian be financially responsible for 
the operations and maintenance of the retail and parking spaces that 
they don't own?
    Answer. The Purchase & Sale Agreement will include a Reciprocal 
Easement Agreement that will define the parties' responsibility for 
maintenance of common elements and will be scaled to the Smithsonian's 
presence in the buildings.

    Question 3. How will the Smithsonian ensure it does not trigger the 
Anti-Deficiency Act?
    Answer. This transaction will not trigger the Anti-Deficiency Act 
as all of the risk and obligation is carried by the nonfederal assets 
of the Smithsonian, which are not subject to the Act.
    The Institution will pay the costs associated with the purchase of 
the building with trust (nonfederal) funds. The Smithsonian will use 
existing trust funds as well as funds appropriated for lease or rent 
payments but expended as rent payable to the Smithsonian and deposited 
into the general trust funds of the Institution and available as trust 
funds for expenses associated with the purchase of the building.
    Additionally, language included in the Further Consolidated 
Appropriations Act, 2020 explicitly states the use of federal funds as 
trust funds for expenses associated with the purchase of the building 
shall not be construed as debt service for, a federal guarantee of, a 
transfer of risk to, or an obligation of the Federal Government.

    Question 3.a.  Will Boston Properties be able to levy special 
assessments on the Smithsonian?
    Answer. Boston Properties will not be able to levy special 
assessments. The management of the building, including all common 
elements, will also be described in detail in the Purchase and Sale 
Agreement. Our due diligence process includes a detailed study of all 
building elements and systems, which will allow us to design a long-
term maintenance plan. The Smithsonian will contribute to the care of 
common elements of the building under the terms of the sale agreement.

    Question 4. How will the Federal appropriations for rent payments 
be utilized?
    Answer. Federal funds appropriated for lease or rent payments will 
be deposited into the general trust funds of the Institution and 
utilized as trust funds for expenses associated with the purchase of 
the building. These expenses will include debt service, acquisition 
costs, and transaction costs.

    Question 5. If the Trust is using Federal lease payments to cover 
the mortgage, why should the Trust own the building instead of the 
Federal government?
    Answer. As noted above, the Institution will use federal funds 
appropriated for lease or rent payments as trust funds to cover a 
portion of the expenses associated with the purchase of the building, 
including debt service. The purchase is properly considered a trust 
acquisition because the Smithsonian will finance the acquisition solely 
through debt and that debt will solely be an obligation of the trust. 
The Institution's trust assets will assume all risk associated with the 
purchase. The language included in the FY 2020 Interior Appropriations 
Act makes clear that the use of federal funds as trust funds shall not 
be construed as debt service for, a federal guarantee of, a transfer of 
risk to, or an obligation of the Federal Government.

Questions from Hon. Mark Meadows to Lonnie G. Bunch III, Secretary, The 
                        Smithsonian Institution

    Question 1. Secretary Bunch, under your leadership, the development 
and opening of the National Museum of African-American History and 
Culture by all accounts is a success. Are there lessons-learned from 
that project that can be applied across the Smithsonian? If so, can you 
explain?
    Answer. Creating and opening the National Museum of African 
American History and Culture was one of the most rewarding and 
challenging projects in my career. Throughout that effort, I learned 
that we all benefited greatly when we had coordinated communication 
efforts, so that all of the many disparate teams working on aspects of 
the project had the same basic information. I also learned that we 
needed to look at our internal administrative infrastructure and learn 
from best practices throughout the government to help us improve our 
internal processes and procedures. I also learned that planning is 
critical, and that the best plans permit flexibility to change when 
circumstances dictate.
    I also learned the critical importance of having a public/private 
partnership to raise the money necessary to create, open, operate and 
maintain a world-class museum. Federal financial contributions are 
needed in order to leverage private support, and another lesson that we 
learned was that a planned approach to the release of appropriated 
funds could greatly benefit our philanthropic activities.

    Question 2. Secretary Bunch, the proposed purchase of a new 
headquarters building is a bit unusual--instead of purchasing the 
entire building and having clear title, the Smithsonian is planning to 
purchase part of a building. What analysis did the Smithsonian do to 
determine if there is precedent for this type of purchase by a federal 
entity? How will shared building systems be managed and who will be 
responsible for maintenance? How will security be addressed?
    Answer. The Smithsonian will have clear title to its interest in 
Capital Gallery.
    Boston Properties will divide its interest in the building into a 
number of lots and then convey clear title to the subdivided lots to 
the Smithsonian in fee simple at the Closing. The subdivision of real 
property is not considered an unusual transaction.
    The Smithsonian will be responsible for maintenance of common 
elements in proportion to its footprint in the building--this is 
enabled by the registration of assessment and taxation lots mentioned 
above. Security will be evaluated in the same way two agencies might 
require sharing a complex of buildings with different levels of 
security. SI guidelines will govern the perimeters of SI occupied units 
and the Smithsonian can coordinate effectively with BXP.
    We consider our experience sharing space with GSA at facilities at 
the Alexander Hamilton Court House in New York and the National Postal 
Museum, or building the National Air & Space Museum on MWAA land, to be 
useful precedent for sharing management and maintenance 
responsibilities for Capital Gallery with Boston Properties.
    The Smithsonian will hold clear title to its lots and same will be 
registered with DC.

    Question 3. Secretary Bunch, the Smithsonian has proposed using 
federal appropriations to pay back the Smithsonian Trust for the 
purchase of the new headquarters building. If the Smithsonian were to 
sell this property where would the proceeds be deposited--in the trust 
or paid back to the federal government?
    Answer. It is the Smithsonian's intention to hold the building as 
an administrative headquarters for the future. There is no intention to 
sell the building or to hold and sell it for profit-making purposes. If 
unforeseen events ever caused the Smithsonian to consider selling the 
building, the Smithsonian would consult with relevant congressional 
committees, including this Committee, in advance and would report on 
the intended use of any proceeds (to the extent such a sale would 
generate a profit). This is also a requirement included in the Further 
Consolidated Appropriations Act, 2020. Any proceeds would be trust 
assets, but the Smithsonian would utilize those assets in a manner that 
would advance the Institution's statutory mission.

    Question 4. Secretary Bunch, the National Air and Space Museum 
project is costing us $650 million. This is a significant amount of 
money--more than it cost to build the National Museum for African-
American History and Culture from the ground up. What mechanisms has 
the Smithsonian put in place to ensure this project stays under budget 
and on schedule?
    Answer. With any major project, the better the planning the lower 
the likelihood of being surprised later. Our planning, design and 
procurement process was thorough, and our estimates validated by an 
independent review from the Government Accountability Office. There are 
also safeguards built into the project, such as budgeting for 
contingencies. Our planning and design approach also builds in 
safeguards. Our own staff, engineers, and contractors are able to work 
collaboratively to prevent conflicts between design and construction 
before they occur. Periodic risk assessments for current conditions to 
the end of the project are also performed to identify possible issues 
along with monthly Change Management Boards to review any major cost 
related items before the construction contingency is applied. While 
it's always possible to encounter an unexpected challenge, we have 
taken precautions to prevent escalation in federal costs. To date, we 
are on track to bring the project to completion on time and on budget 
and will make every effort to continue on that path.
    Arguably the most important safeguard has been the robust federal 
support from the beginning of the project. By funding the project in 
larger installments, we were able to lock in costs on items such as 
glass and stone at the start. This has provided some insulation from 
the volatility in material costs. It also has provided assurance to the 
contractors on the long-term funding of the project, enabling them to 
better manage the resources.

    Question 5. Secretary Bunch, deferred maintenance is an issue 
across government agencies. Yet, we know if regular maintenance is not 
done, more costly emergency fixes are likely down the road. For the 
Smithsonian, the results can be catastrophic given the collections you 
are charged with protecting. Unlike most other federal entities, the 
Smithsonian has the ability to raise private funds. Traditionally 
private donations may only go to new construction, exhibits, or 
research. What is the Smithsonian doing to explore fundraising to 
address ongoing maintenance and repair needs?
    Answer. While private donations have primarily supported 
exhibitions, research, and the creation of new museums, there is no 
prohibition on fundraising for other purposes such as maintenance. The 
challenge historically has been finding donors with an interest in the 
day-to-day operational support.
    The Smithsonian uses the private funds it receives in accordance 
with the donor's intended purpose for each gift. We do engage donors in 
discussions about deferred maintenance needs but have consistently 
found that they are primarily interested in funding exhibitions and 
programs that align with their personal interests.
    Where the Institution is able to be creative is in finding 
synergies between our maintenance, facilities capital, and private 
funding. Revitalizing a privately funded exhibition creates 
opportunities to address maintenance items at a lower cost. This takes 
significant planning, but it ensures the best value for donors and 
taxpayers alike.

    Question 6. Secretary Bunch, generally, the Government 
Accountability Office has found that owning space for long-term needs 
is cheaper than leasing. However, this assumes the federal government 
is providing full funding upfront to construct or purchase space. In 
the case of the proposed new headquarters, the Smithsonian Trust will 
be borrowing the funds and paying back with interest. Did the 
Smithsonian consult with GAO, GSA or other outside entity to verify the 
financing makes sense for the taxpayer? If so, with whom?
    Answer. The Smithsonian consulted with staff from the General 
Services Administration on the Request for Proposal, but not on the 
financing. We did utilize private consultants, Newmark Knight Frank, to 
test numerous scenarios supporting the business case for the purchase. 
This information was extensively reviewed internally and the resulting 
business case was presented to our authorizing and appropriations 
committees.

    Question 7. Secretary Bunch, during the hearing questions were 
raised regarding the Smithsonian seeking authorization for projects 
through appropriations committees rather than the Smithsonian's 
authorizing committee. Do you commit to ensuring this Committee is 
appropriately kept informed in a timely manner of major building and 
real estate projects? Do you commit to working with Smithsonian's 
authorizing committees where authorizations are needed?
    Answer. Through creating the National Museum of African American 
History and Culture, I came to appreciate Congress as a partner whose 
support was an essential element of the museum's success. Now as 
Secretary, that is the model by which I seek to operate. I am committed 
to working with our authorizing committees as it relates to new 
projects and real estate, but also to keep you informed of our program 
priorities. It's important that we do not lose sight of the important 
work our buildings enable, and why they continue to earn the support of 
Congress.

    Question 8. Secretary Bunch, prior to and during the hearing, there 
have been questions regarding the Smithsonian's real estate 
authorities. Please provide the Committee with explanations of the 
scope and the legal citations for the Smithsonian's authorities for 
each of the following real estate activities listed below. If there is 
a distinction between authorities for office space and special use 
space, such as for a museum, please specify.
    Answer. While we do not believe there is a distinction between 
office space and ``special use'' space in terms of authority, the 
answers to these questions can depend on the type of funds involved 
and/or the manner in which the Smithsonian acquired the property at 
issue. Without addressing every possible circumstance, we address the 
principal scenarios below.

    Question 8.a.  Leasing of space
    Answer. The Smithsonian's appropriations bill specifically provides 
the Institution may spend federal S&E funds to enter into ``lease 
agreements of no more than 30 years.'' See, e.g., the FY 2020 Interior 
Appropriations Act. As a practical matter, the Smithsonian limits such 
leases to five (5) years under the authority of the Federal Acquisition 
Streamlining Act. When leasing with trust funds, the Smithsonian relies 
on the statutory authority of the Board of Regents to conduct the 
business of the Institution through use of its trust (nonfederal) 
assets in a manner designed to further the Smithsonian's mission. See 
20 U.S.C. Sec. Sec.  42(a), 55, 56, 57.

    Question 8.b.  Purchase of space
    Answer. The Smithsonian would seek new statutory authority before 
purchasing a building directly with federal funds. If purchasing a 
building with trust funds, the Smithsonian would rely on the statutory 
authority of the Board of Regents to conduct the business of the 
Institution through use of its trust (nonfederal) assets in a manner 
designed to further the Smithsonian's mission. See 20 U.S.C. Sec. Sec.  
42(a), 55, 56, 57.

    Question 8.c.  Construction of space
    Answer. The Smithsonian would seek new statutory authority to 
construct a building with federal funds. If constructing a building 
with trust funds, the Smithsonian would rely on the statutory authority 
of the Board of Regents to conduct the business of the Institution 
through use of its trust (nonfederal) assets in a manner designed to 
further the Smithsonian's mission. See 20 U.S.C. Sec. Sec.  42(a), 55, 
56, 57.

    Question 8.d.  Sale or disposal of space
    Answer. We are not aware that the Smithsonian has sold or disposed 
of a building, such as a museum building, purchased or constructed with 
federal funds, but the Smithsonian would seek congressional 
authorization before selling or disposing of such a building. If 
selling or disposing of a building purchased or constructed with trust 
funds, the Smithsonian would rely on the statutory authority of the 
Board of Regents to conduct the business of the Institution through use 
of its trust (nonfederal) assets in a manner designed to further the 
Smithsonian's mission, see 20 U.S.C. Sec. Sec.  42(a), 55, 56, 57, and 
would inform Congress in advance as appropriate of its intentions.

    Question 8.e.  Outleasing of space
    Answer. The Smithsonian has authority to manage the buildings under 
its control and interprets that authority to include the ability to 
license the use of its space to third parties conducting activities 
consistent with the Smithsonian's mission. See 20 U.S.C. Sec.  46; B-
145878, 1961 U.S. Comp. Gen. LEXIS 2585 (Sept. 1, 1961). If the term 
``outlease'' refers to a commercial leasing program like the General 
Services Administration's, through which GSA outleases vacant space at 
market rates to private businesses or other entities, the Smithsonian 
does not have such a program.
                               attachment
                               MEMORANDUM

 Smithsonian Authority to Acquire Administrative Headquarters Building

    The Smithsonian is seeking to acquire a portion of an office 
building to serve as an administrative headquarters. The Smithsonian 
would finance the purchase of the building by taking on debt. The debt 
would be a general obligation of the trust assets of the Smithsonian. 
The Smithsonian is seeking language in its appropriations bill to 
enable it to deposit federal appropriations designated for lease 
payments into its general trust funds and to use those funds as trust 
funds to pay the expenses associated with the purchase of the building, 
including debt service, to the extent that federally supported 
activities will be housed there. The risk associated with taking on 
debt is an obligation solely of the Smithsonian trust: the proposed 
language provides that the use of such amounts in the general trust 
funds of the Institution shall not be construed as be debt service for, 
a federal guarantee of, a transfer of risk to, or an obligation of the 
Federal Government, and that no appropriated funds may be used 
``directly'' (i.e., without first going into trust funds) to service 
debt incurred to finance the purchase.
    The Smithsonian has the statutory authority to acquire a building 
in this manner. The Smithsonian was established by Congress as a trust 
instrumentality of the United States to carry out the bequest of James 
Smithson. As a trust instrumentality the Smithsonian has broad powers 
under its enabling statute to act with respect to its trust assets in 
furtherance of its mission to ``increase and diffus[e] knowledge.'' 
When the Smithsonian was established, it was not funded with 
appropriated funds. Rather, Congress broadly authorized the 
Institution's Board of Regents--composed of Members of Congress, the 
Chief Justice, the Vice President, and public citizens--to conduct the 
``business of the Institution'' through use of the Institution's trust 
assets in a manner best designed to further the Institution's mission. 
20 U.S.C. Sec.  42(a). Thus, Congress authorized the Regents: to 
``receive money or other property by gift, bequest, or devise, and to 
hold and dispose of the same in promotion of the purposes thereof''; 
id. Sec.  55; to make ``such disposal of any other moneys which have 
accrued, or shall hereafter accrue, as interest upon the Smithsonian 
fund, . . . as they shall deem best suited for the promotion of the 
purposes of the testator''; id. Sec.  56; and to approve payment for 
``the debts or performance of the contracts of the institution . . . 
for making the purchases and executing the objects authorized'' by 
Congress to conduct the business of the institution. Id. Sec.  57.
    Unlike a federal agency, therefore, Congress did not design a 
statutory scheme whereby it specifically authorized each individual 
activity the Smithsonian could engage in. Congress, instead, determined 
to give an esteemed Board of Regents broad, plenary authority to manage 
and operate the Institution with nonappropriated funds in a manner 
consistent with the Smithsonian's mission and charter. See 20 U.S.C. 
Sec.  41 (Smithsonian shall ``have perpetual succession with the 
powers, limitations, and restrictions hereinafter contained, and no 
other''). Over a decade after the Smithsonian was established, Congress 
decided to appropriate funds to the Institution to care for certain 
government collections, and then, over the next 160 years, expanded the 
Smithsonian's federal appropriation and assigned to the Smithsonian 
numerous additional statutory tasks, such as creating various national 
museums. But the Smithsonian has retained its broad authority with 
respect to its trust (nonfederal) assets.
    This includes the authority to lease or acquire facilities with 
trust funds to meet the Institution's needs or to accept real estate 
and property by gift. Congress knew the Smithsonian would need to 
acquire facilities and the original act creating the Smithsonian 
authorized the Institution to use the interest on the Smithson fund 
``for the erection of suitable buildings.'' See Act of August 10, 1846, 
Sec. 2. Congress further gave the Smithsonian authority to administer 
and manage its property. For example, Congress provided that the ``site 
and lands selected for buildings for the Smithsonian Institution shall 
be deemed appropriated to the institution,'' 20 U.S.C. Sec.  52, and 
empowered the Secretary to ``take charge of the building and property 
of the institution . . .'' Id. Sec.  46. Congress further provided that 
``[a]ll laws for the protection of public property in the city of 
Washington shall apply to, and be in force for, the protection of the 
lands, buildings, and other property of the Smithsonian Institution.'' 
Id. Sec.  53.
    The Institution's authority over its buildings was recognized over 
100 years ago in the construction of the Freer Gallery on the original 
Smithsonian reservation, which was done with trust funds gifted by 
Freer and without seeking congressional approval. The War Department's 
Office of Public Buildings and Grounds objected to the construction, 
believing that the property should be regarded as a ``reservation, 
park, or public grounds'' under its jurisdiction and any construction 
subject to Congress's approval. The Judge Advocate General's Office, 
however, agreed with the Smithsonian that it could construct the 
building on its own authority, noting that:

        It appears to have been the purpose of Congress, in creating 
        the establishment known as the Smithsonian Institution, to 
        create an incorporated body with authority to hold and 
        administer the property of said institution and to manage its 
        affairs in accordance with the provisions of said [1846] act of 
        establishment or incorporation, and such further provisions as 
        Congress might from time to time prescribe.

Opinion of the Judge Advocate General of the War Department (June 3, 
1916).

    Indeed, it is a basic principle of trust law that, unless 
prohibited by the terms of the trust instrument or by statute, trustees 
generally are empowered to take such actions as are necessary or 
appropriate to carry out the purposes of a trust, including the power 
to ``acquire or sell property, for cash or on credit, at public or 
private sale.'' Uniform Trust Code, Sec.  816(2) (2000); see also 
Estate of McAlpine v. Commissioner, 968 F.2d 459, 463 (5th Cir. 1992) 
(trustee power to lease). This principle applies by analogy here, and 
the Smithsonian has long relied on its broad statutory powers to 
acquire and administer real property with its trust authority, 
including, for example, when it acquired the Carnegie Mansion by gift 
in the late 1960s (which now houses the Cooper Hewitt, Smithsonian 
Design Museum) and when it acquired, over time by purchase and gift 
beginning in the 1960s, the 2,650 acres comprising the Smithsonian 
Environmental Research Center. Congress recognized this authority when 
it appropriated funds under the same legislative model proposed here to 
facilitate the Smithsonian's acquisition of the Victor Building. See 
Public Law No. 106-113 at 222 (Nov. 29, 1999) (Smithsonian Institution, 
Salaries and Expenses).
    Finally, while the Institution is seeking permission to use federal 
funds--as trust funds--to pay certain expenses associated with the 
purchase of the building, the purchase is still a trust acquisition. 
Like the Victor Building acquisition, the Smithsonian is seeking to buy 
a building through debt it is will take solely as a general obligation 
of the trust. All of the risk associated with the purchase is on the 
Institution's trust assets. The proposed language specifically provides 
that the use of such amounts in the general trust funds of the 
Institution shall not be construed as be debt service for, a federal 
guarantee of, a transfer of risk to, or an obligation of the Federal 
Government. For these reasons, the transaction is properly 
characterized as a trust acquisition.

                                    
</pre></body></html>
